<html>
<title> - HEARING ON PERSPECTIVES ON HOUSE REFORM: FORMER HOUSE LEADERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



     HEARING ON PERSPECTIVES ON HOUSE REFORM: FORMER HOUSE LEADERS

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON RULES

                                 of the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2003

                               __________

                           Serial No. 108-24

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-871                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississppi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

               David H. Schanzer, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

                         Subcommittee on Rules

                 Lincoln Diaz-Balart, Florida, Chairman

Jennifer Dunn, Washington            Louise McIntosh Slaughter, New 
F. James Sensenbrenner, Wisconsin    York
David Dreier, California             Bennie G. Thompson, Mississippi
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Porter Goss, Florida                 Zoe Lofgren, California
John Linder, Georgia                 Karen McCarthy, Missouri
Pete Sessions, Texas                 Kendrick B. Meek, Florida
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                  (II)
?

                                CONTENTS

                              ----------                              

                           MEMBERS STATEMENTS

The Honorable Lincoln Diaz-Balart, a Representative in Congress, 
  From the State of Florida, and Chairman of the Subcommittee on 
  Rules..........................................................     1
The Honorable Christopher Cox, Chairman..........................     3
The Honorable David Dreier, a Representative From the State of 
  California.....................................................    24
The Honorable Jennifer Dunn, a Representative From the State of 
  Washington.....................................................     6
The Honorable Porter J. Goss, a Representative From the State of 
  Florida........................................................    33
The Honorable John Linder, a Representative From the State of 
  Georgia........................................................    20
The Honorable Kendrick B. Meek, a Representative From the State 
  of Florida.....................................................    25
The Honorable Louise McIntosh Slaughter, a Representative From 
  the State of New York..........................................     2
The Honorable Jim Turner, a Representative From the State of 
  Texas..........................................................     5
The Honorable Curt Weldon, a Representative From the State of 
  Pennsylvania...................................................     5

                               WITNESSES

The Honorable Tom Foley, a Former Speaker of the House of 
  Representatives
  Oral Statement.................................................     7
The Honorable Newt Gingrich, Former Speaker of the House of 
  Representatives
  Oral Statement.................................................     9
  Prepared Statement.............................................    12
The Honorable Lee Hamilton, a Former Representative in Congress 
  from the State of Indiana
  Oral Statement.................................................    39
  Prepared Statement.............................................    42
The Honorable Bob Walker, a Former Representative in Congress 
  from the State of Pennsylvania
  Oral Statement.................................................    37
  Prepared Statement.............................................    38

                                 (III)

 
     HEARING ON PERSPECTIVES ON HOUSE REFORM: FORMER HOUSE LEADERS

                              ----------                              


                       Tuesday, September 9, 2003

                  House of Representatives,
                             Subcommittee on Rules,
                      Select Committee on Homeland Security
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:31 a.m., in room 
Hs-13, The Capitol, Hon. Lincoln Diaz-Balart [chairman of the 
subcommittee] presiding.
    Present: Representatives Diaz-Balart, Dreier, Weldon, Goss, 
Dunn, Linder, Cox (ex officio), Slaughter, Meek, and Turner (ex 
officio).
    Mr. Diaz-Balart. Let me welcome all of you and especially 
our subcommittee members from what I hope and trust was a 
productive August break. Now we are back and fully engaged, 
confronting an issue of great importance to the House and the 
Nation: Is our committee system structured effectively to 
address the critical and complex issue of homeland security?
    Congress must be organized to work effectively and 
cooperatively with the Department of Homeland Security to 
ensure prevention of and recovery from future attacks. This 
subcommittee is studying the current House rules, including 
committee jurisdictions, to ensure just that.
    With the anniversary of the savage attacks of September 
11th just 2 days away, we are reminded of the importance of the 
task before us, protecting Americans at home and abroad. This 
is the primary reason for the existence of the government, and 
it must remain a focus of this Congress.
    As we have previously discussed, committees are really 
workshops or mini-legislatures because of their vital role in 
processing legislation and reviewing the implementation of our 
laws by executive agencies. Committees carry out the important 
oversight function of Congress. The strength and vitality of 
the committee system directly affects the strength and vitality 
of the House.
    Last Sunday, September 7th, the Washington Post carried a 
front page story about the Department of Homeland Security. It 
reported that the new Department is troubled and hobbled by 
many problems, including this organization's turf battles. A 
prime mission of this subcommittee is to assess whether our 
committee system is also hobbled by disorganization and too 
many turf battles in the area of homeland security or, 
alternatively, whether our House committees have sufficiently 
adjusted and adapted to the complexities of homeland security.
    These are difficult questions. Fortunately, the 
subcommittee today calls upon the advice of extraordinary 
experts. That is what we are doing with this especially 
distinguished panel of former members. We are indeed honored 
and privileged, and I would call to the table before us our two 
former Speakers, Newt Gingrich and Tom Foley. Both have had 
long illustrious careers in the House and both are known for 
their intellect and deep insight regarding the important issues 
of the day. Moreover, from their unique vantage point as former 
Speakers, they were deeply immersed in all issues and policies 
affecting the House, including committee reorganization. As a 
result, Speakers Foley and Gingrich can provide this 
subcommittee with practical and political judgments about how 
the House might handle the issue of homeland security and the 
committee structure.
    I could recount the broad experiences of each of the former 
Speakers, but much of that is included in materials distributed 
to each of the subcommittee members, and their backgrounds and 
accomplishments are well known. In reality, these two statesmen 
really need no introduction because of their extraordinary 
records of distinguished public service. I will simply say that 
Speakers Gingrich and Foley are among our Nation's most 
prestigious public servants. We are delighted that both of you 
are here to present testimony to the subcommittee. Following 
their testimony, we will have a second panel, a bipartisan 
panel as well, composed of two very well known and very 
talented former members, Lee Hamilton and Bob Walker.
    Like Speakers Gingrich and Foley, both of these gentlemen 
also served with distinction in the House, each having chaired 
one or more committees. Mr. Hamilton and Mr. Walker were also 
heavily involved in efforts to reform the House and Congress in 
general. For example, Mr. Hamilton chaired the 1993 Joint 
Committee on the Reorganization of Congress, and Mr. Walker was 
a key member of that panel. I should note that their detailed 
biographies are also in the members' folders, and we welcome 
and appreciate the testimony of those two extraordinary former 
colleagues as well.
    At this time, before I ask Speakers Foley and Gingrich to 
begin their testimony, I would like to ask my ranking member, 
Louise Slaughter of New York, if she has an opening statement.
    Ms. Slaughter. I do. Thank you. Chairman, I am pleased to 
be here with you this morning and to certainly welcome our 
former colleagues. We do have extraordinary experience and 
wisdom here this morning, and I am delighted to be able to draw 
on it. You had lengthy service in the House and distinguished 
work that you did for your parties admirably. It is nice to 
have two colleagues who were not Speakers but experts. Bob 
Walker, who probably knew the rules of the House better than 
anybody I have seen, and Lee Hamilton I hope will be here 
pretty soon.
    In my own Congressional experience I had the opportunity to 
try to do some House reform under Speaker Foley's leadership. I 
headed up the OSR, Organizational Study and Review. And in 
studying the history of the House, I found that they have been 
trying to reform it since 1880, and it is undertaken with great 
trepidation and some fear. You know, there are a lot of joys 
and frustrations in doing this kind of work, but it needs to be 
done. In the Federalist Paper No. 3 John Jay wrote, ``Among the 
many objects to which a wise and free people find it necessary 
to direct their attention, that of providing for their safety 
seems to be the first as it respects security for the 
preservation of peace and tranquility, foreign arms, and 
influence.''
    As we approach the second anniversary of the tragic events 
of September 11th, we are reminded of the great and the 
perpetual need to provide for the safety of our country. We 
spend a lot of time and energy on substantive steps to get 
ready to prevent future threats, and we are still continuing to 
consider that consideration in which procedural and structural 
changes in the House may be warranted. The main assignment for 
this subcommittee is to review whether the current committee 
system is effectively organized to address the issues of 
homeland security and, if not, how can it be improved to deal 
with a very significant issue.
    Committees are central to the House policy process. The 
House has charged this subcommittee with evaluating how well 
our current committee structure is dealing with homeland 
security. Is our current system able to deal effectively with 
this new policy area called homeland security? If not, how much 
committee change is necessary and what form might those changes 
take? How might we implement any suggested alterations? Few 
people are better able to discuss this in our panels today 
starting with Mr. Foley and Mr. Gingrich, who understand the 
House, understand its politics, its procedures, its 
personalities, its policymaking processes. And that, gentlemen, 
is why we have called upon your expertise, to hear your views, 
your recommendations and observations about the committee 
system and homeland security.
    As Speakers of the House, each of you bring to this hearing 
a distinctive perspective based on your multiple and broad 
responsibilities in leading the House and your respective 
parties. As Speakers, both of you were intimately involved in 
numerous matters affecting the committee systems, such as the 
reference of bills to committee, which is an important issue 
for us on Homeland Security, party ratios on committees, 
committee assignments, committee reform, and scheduling the 
legislation for consideration. We believe that your expertise 
will advance our thinking, and we are delighted that both of 
you have agreed to be here this morning, and we look forward to 
hearing from you.
    Mr. Diaz-Balart. Thank you, Louise.
    Do any other members have any opening comments? Mr. 
Chairman.
    Mr. Cox. Thank you, Mr. Chairman.
    Welcome, Mr. Speaker. Welcome, Mr. Speaker. I want to begin 
by thanking Chairman Diaz-Balart for continuing to take the 
lead in this very important task of examining the rules of the 
House as they relate to homeland security. The recommendations 
of this subcommittee will be instrumental in shaping the way in 
which Congress carries out its critical homeland security 
mission. We have an obligation under the resolution that 
created this select committee to report back to the full House, 
and this is fulfillment of that requirement imposed upon us by 
the Congress.
    I am very pleased to welcome these two former Speakers of 
the House, Newt Gingrich and Tom Foley, along with former House 
members and the committee chairmen Bob Walker and Lee Hamilton. 
These gentlemen have each distinguished themselves as 
extraordinarily capable leaders and public servants, and I look 
forward to hearing their testimony. Many of us have the 
privilege of knowing our witnesses personally as colleagues and 
as friends, and we are eager to hear your insights on this 
critical topic. Your collective experience from lessons learned 
in prior House sessions should serve as a helpful guide to the 
future as we work to fulfill our mandates.
    As always, we approach the topic of homeland security with 
the utmost sense of urgency. The task of this subcommittee as 
it affects the full committee's legislative and oversight roles 
is of critical importance. Less than a year ago, President Bush 
signed into law legislation that created this new Department. 
It was all very new. It is the most sweeping reorganization of 
executive agencies in over a half century. Just as under the 
act, we have consolidated some 22 agencies, 170,000 employees. 
The House has taken the necessary corresponding steps in 
establishing this select committee and creating a special 
subcommittee, one of the existing number of 13 subcommittees of 
the Appropriations Committee. This is permitting Congress to 
focus the many homeland security related activities and provide 
clear direction for the new Department.
    Because DHS is currently constructing an organization and a 
culture that will last indefinitely, the oversight role of 
Congress just now takes on a special importance. The importance 
and the complexity of our Nation's homeland security demands 
and deserves the attention of a dedicated authorizing and 
oversight committee. It is the purpose of this Department to 
prevent, prepare for, and respond to terrorist attacks, not to 
testify around the clock year in and year out to innumerable 
Congressional committees. Congress would inevitably not just 
interfere with the mission but indeed compromise the homeland 
security mission were we not to be organized ourselves in our 
legislative responsibilities.
    The Nation deserves better. Every American deserves to know 
that our government is taking every reasonable step to prevent 
terrorism, to protect our Nation, and to save lives in the 
event of a terrorist attack. This cannot be a political game in 
which committees compete to protect their jurisdictional turf. 
Congress must work efficiently, with clear oversight and 
legislative responsibilities for the sake of our Nation's 
domestic security.
    Finally, I note that in today's CQ there is a headline item 
about this hearing and about the testimony of former Speaker 
Gingrich, flashing back to 1994 when the Speaker proposed, as 
the House eventually did, consolidating committees of the 
House, eliminating unnecessary employees, and so on. I want to 
observe that conforming the bureaucracy, whether in the 
executive or legislative branches, to the purposes of 
government is the focus of our hearing today as it was our 
focus in 1994, and I see complete consistency in the work that 
we did in the House then and that we are undertaking now. And I 
want to thank our witnesses for your expertise. I thank the 
chairman once again for convening this hearing.
    Mr. Diaz-Balart. Thank you, Mr. Cox.
    Mr. Ranking Member, sir.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank 
Speaker Foley, Speaker Gingrich, Bob Walker, and Lee Hamilton 
for being with us today. It is a monumental undertaking to 
contemplate changing the committee structure in this body, and 
the witnesses before us today know it better than any of us 
from their years of experience. When we look at the fact that 
14 committees in this House have a piece of homeland security, 
we can see how cumbersome it is for us to speak clearly with 
one voice to the new Department of Homeland Security. What we 
are looking for today from our experts is an answer to the 
fundamental question: should we be reorganizing Congress, the 
committees, in light of the major reorganization of the Federal 
Government? second, what are the justifications for doing so? 
Why is it important? And finally, I suppose with the expertise 
before us, what we need to know most importantly is how in the 
world can we get this accomplished? Because, as we all know, 
jurisdiction in the House and the Senate, jurisdiction equals 
power and influence, and nobody likes to give any of it up. So 
we really need your insights on how we can accomplish the task 
that most of the scholars that have come before our committee 
and the outside think tanks have all said needs to be done.
    How do we get it done? That is the most perplexing and 
difficult challenge that we face, and we appreciate each of you 
coming today and sharing your experience and your thoughts with 
us.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you, Mr. Turner.
    Mr. Weldon.
    Mr. Weldon. Thank you, Mr. Chairman. It was approximately 
one year ago when I went before Chris Cox's policy committee 
and made the pitch that we should move toward one Select 
Committee or one actually Permanent Committee on Homeland 
Security. A month later, I testified before this very 
committee, the Rules Committee, along with Rob Andrews of New 
Jersey in a bipartisan effort, to create a similar committee. 
And it was in our reorganization meeting in November where I 
offered a resolution which passed the Republican Conference 
unanimously to authorize the leadership of the House to create 
a new committee. Our goal all along was to create a permanent 
committee that would have total jurisdiction over dollars. In 
fact, it was this chart that we used to show to our colleagues 
that I think there are approximately 88 committees and 
subcommittees with jurisdiction over various aspects of 
homeland security, totally unacceptable to the smooth operation 
of this new agency.
    So we have laid the groundwork, and Chris Cox and Jim 
Turner have done an admirable job in getting this committee off 
the ground. But we are not there yet. We are not there yet 
because we don't have the jurisdiction over the dollars, we 
don't have the jurisdiction over the policy, and I think today 
is kind of like the icing on the cake because we bring in the 
heavy hitters, the people who I think have the credibility in 
both parties to tell this body that we should in fact make this 
committee a permanent standing committee of the Congress to 
deal with the issues that are before us as a Nation.
    So I thank you, Mr. Chairman, for your leadership and our 
good friend from New York for her leadership on the minority 
side, and look forward to working with you as we proceed 
through this hearing and ultimately recommend to the full 
committee the path to take to create a full committee in the 
next session of the Congress.
    Mr. Diaz-Balart. Thank you, Mr. Weldon.
    The vice chairman of the full committee, Ms. Dunn.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    Good morning, and welcome, gentlemen. It is great to have 
you here with your huge amount of experience and background, 
all having been through the most recent reorganization ever in 
1993 and 1994. I really look forward to hearing what you have 
to say. As I read your testimony, it seems to me that the issue 
came down to one of focus. And focus is what I am interested in 
our projecting as we work toward making this a standing 
committee. One of the fronts we must protect, in taking our 
highest responsibility to protect the people of our Nation, is 
the front at home. And coordinating those ground forces is the 
Department of Homeland Security. It was created in response to 
an evident need to coordinate across agencies, agencies that 
currently are interconnected by their similar but unique 
missions, to defend the American people at home, whether it be 
by securing borders or preparing for a biological attack or on 
many other fronts.
    I believe that in order for the Department of Homeland 
Security to carry out what is the most important responsibility 
of the Federal Government, assuring the safety of our citizens, 
that we as an oversight body, that is, that Congress must 
present a clear and concise vision for the Department. Just as 
the Department of Homeland Security was created to be the 
authoritative voice for the national effort to secure the 
homeland, Congress also needs to find one voice, one voice as 
it does its oversight. The Department deserves to hear a 
unified voice from the Hill as it continues to carry out the 
momentous task of coordinating 22 Federal agencies. This 
committee, the Select Committee on Homeland Security, provides 
focus to our homeland security mission. Other congressional 
committees continue to share the burden of multiple 
responsibilities and touch upon areas of oversight for the 
Department of Homeland Security, but this committee has as its 
sole mission to oversee the new Department and, more 
importantly, to understand how it works as well as to decide 
how it could work better.
    If we are serious about securing the homeland against 
scenes such as September 11th, this body must commit to provide 
the Department of Homeland Security with the same focused 
message we expect to see emerging from the Department. So we 
welcome all of you who are experts in the area of the 
reorganization of government, and we are very thankful and 
appreciative that you are here today to give us your thoughts 
and to help us come out with a frank and an open discussion 
about how we can carry out our mission of ensuring the safety 
of the American public.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you very much.
    Mr. Goss?
    Mr. Goss. No comment.
    Mr. Diaz-Balart. We are honored by the presence of Speaker 
Foley and Speaker Gingrich. Without further delay, Mr. Foley.

  STATEMENT OF THE HONORABLE TOM FOLEY, FORMER SPEAKER OF THE 
                    HOUSE OF REPRESENTATIVES

    Mr. Foley. Thank you, Mr. Chairman. Ms. Slaughter, Chairman 
Cox, Mr. Turner, members of the subcommittee. This is such a 
distinguished subcommittee, it has so many people of long 
experience and high rank in the Congress that it reflects I 
think the commitment of the Congress to this vital subject, and 
I don't think there is anything more appropriate than this 
committee's consideration of how Congress should respond to the 
problems of oversight and focus that have been created by the 
creation of the Department of Homeland Security.
    Mr. Chairman, I don't have a written statement this 
morning. I would like to have the committee's leave to submit 
one subsequently.
    Mr. Diaz-Balart. Of course, without objection.
    Mr. Foley. And I will just speak in my opening statement 
rather briefly, because I think our main objective was probably 
to have some dialogue here.
    Let me just say a couple things. One, the committee 
received testimony on the 19th of May from Thomas Mann of the 
Brookings Institution and Norm Ornstein of the American 
Enterprise Institute, and I think that reflects, frankly, the 
very complete way, pretty much my views on the subject, and I 
would like to associate myself with that statement.
    Speaker Gingrich and I and Mr. Walker and Mr. Hamilton have 
not had any specific discussions about our testimony, but my 
instinct is we are going to come down pretty much in the same 
place. And as was reflected in the opening statements of many 
of the members, I think, speaking for myself, that it is 
essential that there be a major committee, I would think a 
standing committee of the House, that has responsibility for 
authorization, for legislation, and for oversight of the 
Department of Homeland Security. I think there is the problem 
that otherwise, with this diverse universe of subcommittees and 
committees, 13 committees, 88 subcommittees, a majority of the 
committees of the House, a majority of the subcommittees of the 
House, I am told almost rather clear the majority of the 
Members of the House have some connection with one of these 
subcommittees or committees that would otherwise have 
jurisdiction. So there is not only a need to bring some focus 
and scope to the oversight function, but there is a critical 
need to avoid the destruction of members of this new Department 
from having to respond day by day to dozens and dozens of 
different requests for testimony, and that is predictable. This 
is a vital subject. It affects the immediate security interests 
of the American people, of every American citizen, and 
naturally it draws the strong attention and commitment of every 
Member of Congress. It is the subject, it is hard to think of a 
subject more important for Congress in its oversight function 
than the subject of homeland security.
    Second, the Department, the largest accumulation of Federal 
agencies, the largest probably reorganization of the Federal 
Government since the Civil War, is not in good condition at the 
moment. I think it is fair to say that there are serious 
problems, and it is not unusual that there should be. Such a 
massive reorganization will I think almost eventually, 
inevitably I should say, create that kind of problem. But to 
have the new Department drift, so to speak, from a clear 
focused attentive Congressional oversight function would be 
very unfortunate.
    I think in my experience there has been a--with Lee 
Hamilton sitting behind me, he chaired the Committee on the 
Reorganization of Congress, and I can remember countless 
discussions with Lee about the problems of reorganizing 
Congress. And no problem is more difficult than the problem of 
committee jurisdiction. Members of Congress deeply committed to 
their role are invested in the work of their committees and 
subcommittees. They gain expertise, they gain knowledge, they 
are involved deeply, emotionally in the work of their 
committees and subcommittees, and tampering with that, trifling 
with it creates enormous tensions in the Congress.
    I think at one time Voltaire wrote a letter to Catherine 
the Great suggesting how she should run the Russian empire, and 
Catherine wrote back to Voltaire: My dear friend, you write to 
me on parchment paper, but when I rule I must write on the 
human skin and it is pricklish and irritable.
    Well, there is nothing more pricklish and irritable on the 
Congressional skin than starting to talk changing committee 
jurisdiction.
    So, Mr. Turner, I have got to say that if I had a 
prescription of how this could be done easily and comfortably, 
I would gladly share it, but it is going to be difficult. 
Because all of these committees, or rather departments and 
agencies that have been grouped together are not all of them 
transferred in total to the new Department. There are some--for 
example, the Animal Health and Plant Health of the Department 
of Agriculture has a function in the Department of Homeland 
Security; it also has a function in the Agriculture Department. 
The Customs Department has to do things not directly associated 
with the homeland security aspect of Customs that is 
transferred there. The Surgeon General functions are divided. 
So there will be the inevitable problem of how you handle the 
non-homeland security aspects of these agencies and departments 
with respect to oversight and authorization and so on. That is 
going to be a problem for us.
    I think the work is so important that it may be that this 
will be an exception to the usual problem that changing 
committee jurisdiction or creating a new standing committee is 
an extraordinarily and almost impossible, difficult task. And, 
of course, when the rules are written next year, it is possible 
for those rules to contain provisions on a standing committee 
that would be adopted with the rules. But I will obviously 
sympathize ahead of time with the difficulties that you are 
going to have in dealing with many Members who are not going to 
be directly involved in whatever the new committee will be.
    Second, there are decisions to be made as to how each party 
will fill its assignments and whether there will be an ability 
to serve on other committees, how the committees will be ranked 
by the various parties and their determination. All those 
things will have to be worked out not only in the House rules 
but in the rules of the Republican Conference and the 
Democratic Caucus.
    Again, if it were not so critical a problem, I wouldn't 
really wish it on you because it is very difficult work. But 
this is a department that is a function of the Federal 
Government that has been proposed by the President, enacted by 
a bipartisan majority of the House and Senate, and it is 
critical that it succeed, and its success I think will depend a 
lot upon whether there is a focused clear responsibility of 
Congressional oversight, and that has to include authority for 
appropriations, in my view. I don't think you can disconnect 
the money responsibility, authorizing responsibility from the 
responsibility of oversight. Departments take things more 
seriously from committees when there is the authorization 
responsibility connected with it.
    I think at this point I am going to suspend and join you 
later for discussion.
    Mr. Diaz-Balart. Thank you. Thank you, Mr. Foley.
    Speaker Gingrich.
    Mr. Gingrich. Thank you, Mr. Chairman. And I couldn't help 
but remember when Chairman Cox was talking about when we 
reformed in late 1994 that Chairman Dreier in fact was the 
leading person in that effort. So this will not be a new topic 
for Chairman Dreier.
    I appreciate very much the opportunity to advise, and 
Speaker Foley and I were chatting earlier about the notion that 
we can come back and advise all we want to but the real burden 
of implementation is on Speaker Hastert and Leader Pelosi and 
on your shoulders as a group, and I also agree with Speaker 
Foley and his comment to Mr. Turner that there is no easy and 
comfortable way to do this.
    On the other hand, I think it is so necessary and so vital 
that the House will rise to its duty to the country and to 
future generations. What you are asking today I believe may 
turn out to be the most important question about the survival 
of this country that can be asked this year, and I don't think 
that is hyperbole or exaggeration. Mr. Hamilton and I served on 
the Hart-Rudman Commission, which spent 3 years looking out to 
2025 in national security terms. And on a bipartisan basis, 14 
of us issued a report in March of 2001 warning about attacks on 
American cities with weapons of mass destruction probably by 
terrorists, and calling for a homeland security agency. At the 
time it wasn't noticed very much in the press or anywhere, 
although the House and Senate to their credit did hold 
hearings. Vice President Cheney had begun to study the topic on 
September 11th on behalf of the President, and of course we 
ended up with the President recommending a Department of 
Homeland Security.
    Let me emphasize the context in which you are meeting and 
the context in which you have to talk to your colleagues, and 
on which I think we would both agree and I hope that Mr. Walker 
and Hamilton, Chairman Hamilton and Walker would also agree 
that this is so important that whatever has to be done to get 
it done we are prepared to do what we can in talking with our 
friends up here on the Hill. The reason is very 
straightforward. We live in an age of terrorists and dictators 
who combine hatred for us with weapons of mass murder that 
enable them to engage in total war with remarkably small 
numbers of people, with ideologies which legitimize killing as 
many Americans as possible, in a world in which the combination 
of global commerce and global information creates what Director 
Tenet has described as a gray world in which illegal 
transportation of people, illegal drug dealing, illegal 
international crime, illegal arms dealing, and illegal 
transportation all provide avenues for any tiny terrorist group 
with money. So you don't have to have a long gradual buildup of 
capability; you have to have enough money to walk into the 
right room in the right town to hire somebody who is making a 
living 24 hours a day, 7 days a week doing illegal things. And 
we have to confront how difficult it is. In addition, we have 
to recognize that as much as people like me are in favor of an 
offensive range, and I am in favor of going after the 
terrorists, I am going to ask Lee to put up the map of--the 
Central Intelligence Agency has put out a map which were given 
to all the Members and is available to media of ungoverned 
areas.
    Now, the reason this map was developed was to make the 
point, if you talk about no sanctuaries and you know that in 
Paraguay there is a town in which Hezbollah has operated in for 
20 years, and they have found that the production of 
counterfeit CDs creates a higher return on capital than coca, 
and so they produce millions of CDs in this little town. And 
you go around the planet, and you discover--this is a very 
sobering map which all of you will have a copy of, I hope you 
look at, because part of what it says is no matter how good our 
offensive sight is, no matter how good our intelligence and our 
national security, in the end prudence requires that we plan on 
responding after we hit, because something someday somewhere 
will leak through. And that requires the Department of Homeland 
Security. And I think it is more dangerous than anybody has yet 
dealt with publicly.
    Let me give you an example. In my own planning coming out 
of the Hart-Rudman process and the work I have done since then, 
my assumption is that 80 percent of the danger is biological, 
19-1/2 is nuclear, and a half percent is chemical. And I really 
emphasize the biological because it is very hard to find, it 
can be done in an area the size of a kitchen. The scale of 
biological knowledge that is exploding on the Internet makes it 
easier and easier for people to learn how to do it, and the 
downside is horrifying. We all focus on smallpox. Smallpox is 
dramatically more containable than an engineered flu. And if 
you go to the Centers for Disease Control and ask them what 
would the impact of an engineered flu be like, it is 
horrifying. Now, remember, a smallpox attack in three towns in 
the dark winter war game where Senator Nunn played the 
President at the Johns Hopkins produced a million dead and 3 
million ill. And that was considered a modest attack. I asked 
one Nobel Prize winner, what could we expect if we had a 
genuine engineered virulence, and he said 50 percent casualties 
would be reasonable. I said that would be 145 million. He said, 
yes, but I won't say that publicly because I have no solution.
    I think something on the 80 million level is probably the 
right worst case. But in any case, if you think about how we 
reacted to 3,000 on September 11th, biological threats are 
horrifying. And that is why we react to anthrax, that is why we 
react to SARS. We have this deep internal sense that this is 
personal and really dangerous.
    And so then you have to say, all right, how do we respond 
to threats on this scale.
    Now, we can in fact dramatically improve our health system, 
we can dramatically improve our provisions for recovery, we can 
dramatically improve our control of the borders. The President, 
working with the Democrats and Republicans in a bipartisan way, 
recognized that this required bringing 22 agencies into one 
department. And I think he deserves a lot of credit, because 
again Hart-Rudman can propose, we didn't have responsibility. 
But this President responded and the Congress in a bipartisan 
basis responded. But if we could have back up again Mr. 
Weldon's chart--his was prettier than the one we brought--I 
think it is really important to look at this and I think it is 
a chart that every Member of the House should look at.
    The Washington Post had a very good story Sunday about the 
difficulties of homeland security. And I agree with Speaker 
Foley, there are exactly predictable difficulties. They are the 
problems you would expect with this large coming together. But 
the closing part of that article talked about the difficulties 
of reporting to Congress. And I think it is impossible for any 
Member of the House to go home and say this is adequate, this 
is rationale, this makes sense.
    Now, we all in the legislative branch, and certainly the 
Speaker and I spend our careers cheerfully doing this, we all 
explain to the executive branch regularly why it is inadequate, 
wasteful, foolish, badly run, and then bristle immediately if 
anybody in the executive branch suggests to us maybe the 
legislative branch occasionally needs to rethink how it works. 
But 88 committees and subcommittees for one department? By one 
count, 412 Members of the House serve on a committee or a 
subcommittee with some right to jurisdiction. 100 of the 
Senators. I mean, not a single Senator is left without an 
opportunity to ask Secretary Ridge what he is doing. Now, that 
is just an absurdity, and it is a violation of our survival 
requirements.
    And let me point out, these are not theoretical problems. 
In the last week, the Washington Times reported on a North 
Korean defector who had proof of using human beings in 
biological tests in North Korea. And in the last 10 days, 
Newsweek reported that bin Laden has an active biological 
program. Now, they may be exaggerated but they are in a 
direction that is totally believable to everyone that I know 
of.
    My suggestion is first that you have to have a single 
standing committee, that I would recommend that the Speaker and 
the Democratic leader jointly with their leaderships announce 
now that in the next Congress they are committed to having this 
committee, because I think the current committee has to be 
planned. I don't think you can wait until December of next year 
to make decisions. And so I think at the earliest date this 
Congress, this House has to make clear there will be a standing 
committee, it will have real authority. I would agree with 
Speaker Foley, and this would be truly a bold step, that if you 
could find the will to give that committee both authorizing and 
money power you would have truly changed the system and you 
would have changed it in the right direction for the right 
reasons. And this is about life and death. This is not 
theoretical; this is about life and death.
    In addition, I want to suggest to you, because there are 
legitimate concurrences. Much of homeland security is dual use. 
The first responders, after all, spend most days putting out 
fires or dealing with police work or being emergency ambulance 
systems. They don't spend most days dealing with homeland 
security crises. It is fair to say that the health information 
technology for homeland security will actually dramatically 
improve our daily health behavior, and in fact I have written a 
direct comparison with Eisenhower's interstate highway system 
which was originally described by Eisenhower as a system to 
help people get out of cities in case of a nuclear war. There 
was a National Defense Highway Act. And I would think we 
actually need a National Defense Health Information Act along 
the same line. But that system will improve every doctor, every 
laboratory, every nurse, every hospital on a daily basis. So 
there are going to be overlaps.
    My recommendation is that the House also create the pattern 
in the next Congress of adopting a resolution on the opening 
day which instructs the executive branch on who has to report 
where. And the reason I say that is if you sit down today--and 
it probably should come out of the Rules Committee. But if you 
sit down today and you just ask every department, who do you 
have to go testify to and who do you have to answer inquiries 
from, it is a cacophony. And I think we have some obligation to 
organize the Congress in parallel with organizing the executive 
branch. And I know that is very risky even for those of us who 
are not here but used to be to come back up here and say, we 
actually have to look at ourselves as well as cheerfully look 
down the street at the executive branch.
    But in the case of homeland security, it is going to some 
day be literally life and death. And I think we all want to be 
able to look back and say to our children and our grandchildren 
we did the right thing, not we did the easy thing. And I am 
confident that with this hearing you have started that process, 
and I am very grateful, Chairman, that you would invite us and 
allow us to come and share with you.

  PREPARED STATEMENT OF NEWT GINGRICH, FORMER SPEAKER OF THE HOUSE OF 
                            REPRESENTATIVES

    Mr. Chairman and members of the Subcommittee:
    I appreciate the opportunity to testify today on the gravest threat 
to our survival since the height of the Cold War. This challenge has 
already required the most significant transformation of our government 
since the National Security Act following World War II when President 
Truman established the modern unified military organization in 1947.
    After the attacks of September 11th, 2001, President Bush correctly 
determined that 22 domestic agencies needed to be coordinated into ONE 
department to protect the Nation against threats to the homeland.
    Instead of matching the President's decisive consolidation and 
rationalization, Congress continued with a total of 88 Congressional 
committees--including subcommittees--with some sort of piece of the 
Homeland Security jurisdiction puzzle as shown on this chart. By one 
estimate, at the end of the 107th Congress, the membership of those 88 
committees and subcommittees included all 100 Senators and 412 House 
members. This is an obvious absurdity--if everyone has a voice, no one 
is responsible.
    We know from experience that this kind of diffusion does not work. 
For example, the Department of Energy, which was created during the 
last big Federal reorganization in 1977, only answers to 17 committees 
and is still considered ``a model of how NOT to make a department.''
    I am going to assert the survival imperatives of establishing a 
permanent Committee on Homeland Security with a clear primary 
jurisdiction over the Department of Homeland Security. To understand 
why it is a survival imperative, I am going to focus on the broader 
mission of keeping America safe from terrorism and why your task is so 
urgent today. Congress cannot meet its constitutional responsibilities 
unless it shows the same courage as the President in forcing through a 
real reorganization that does not entangle the Department of Homeland 
Security in a web five times more complex than the Department of Energy 
deals with. It is urgent that Congress also reorganizes its own 
structure now.
    The Rules Committee is asking THE key questions about the future of 
the United States and the role of the Congress in securing that future.
    How big a threat or threats do we face to our homeland?
    How important is Homeland Security in defeating that threat or 
threats?
    What is the role of Congress in ensuring that America survives 
despite these threats?
    These three questions have to be answered before the detailed 
question of how the House organizes itself for Homeland Security can be 
answered.
    In this testimony I hope to convince you that designing and 
implementing an effective Homeland Security system is the most 
important challenge facing this Congress in the next decade. In fact 
being effective at Homeland Security could prove to be literally a 
matter of life and death in terms of the security and freedom we have 
grown accustomed to as Americans. Life and death is not a rhetorical 
term. It is conceivable some of the threats of the 21st century could 
kill many times the 3,000 who were killed on September 11, 2001. In 
fact, given certain biological threats it is conceivable even millions 
of American lives could be at risk. This emerges from a historically-
based study/ies of biological threats in past eras of epidemic 
outbreak.
    This risk of potentially losing millions of Americans and even 
having the very fabric of our society torn apart is why there is no 
issue or problem for which Congress must organize and allocate time and 
resources which is more important than creating an effective system of 
Homeland Security. Let me explain why this is true.
    Three developments have come together to make the next quarter 
century particularly dangerous for Americans.
    First, science is leading to the development of weapons of mass 
murder that could kill far more people than anyone can currently 
imagine. In particular the biological revolution which is so 
dramatically changing healthcare and agriculture is also creating the 
potential to dramatically increase the capacity to create weapons of 
mass murder. The threat of large-scale death has been estimated at 80% 
biological, 19 and a half percent nuclear, and only about one-half of 
one per cent chemical.
    Only by examining the history of new diseases in unprepared 
populations can we begin to understand the horrendous threat that is 
emerging but still largely ignored. The flu epidemic of 1918 killed 
more Americans than the entire First World War. The introduction of new 
diseases shattered the Aztec and Inca civilizations after the arrival 
of the Spanish. Hawaiians may have lost up to 90% of their population 
to new diseases. Some North American tribes lost up to 96% of their 
people in specific villages.
    Even in populations that had historically experienced disease the 
right circumstances have created shattering impacts. The plague of 
1348-49 killed up to one-third of the people in European cities it hit.
    The threat of biological warfare is reinforced by the steady spread 
of nuclear weapons. North Korea is militantly preparing to test nuclear 
weapons and is very likely to sell them once they exist. Pakistan has a 
significant number of nuclear weapons and if the current government is 
replaced by a militant Islamist regime there is no guarantee some of 
those weapons won't be sold or traded to America's militant enemies.
    It is vital that the Congress and the country understand how real 
and how imminent these threats are. September 11, 2001 has to be a wake 
up call that leads us to understand how bad the next attack could be.
    Second, the threat of weapons of mass murder is being intensified 
by the rise of an anti-American hatred that is stunning in its language 
and ferocity. If you read MEMRI's routine translations of reactionary 
Islamist hatred and condemnation of the United States you will 
understand where the large and growing pool of homicide bombers is 
coming from. Americans were described as ``cannibals eating the flesh 
of their Islamic opponents'' in one recent Egyptian newspaper column. 
The routine legitimization of killing women and children is a staple of 
many Islamist clerics.
    This level of hatred for the United States is partially linked to 
our support for Israel but it is even more deeply linked to our 
culture. From an Islamist perspective the very existence of a country 
in which women vote, drive cars, appear in bathing suits, work on their 
own and circulate freely among men is a mortal threat to their way of 
life. Some American elites consistently reinterpret the Islamist 
rhetoric to find some way to ``get along'' with people who hate our 
values and our way of life. This is a profound error.
    We will ``send the bodies of American troops and civilians home in 
wooden boxes and coffins,'' Osama bin Laden has vowed. ``We don't 
differentiate between those dressed in military uniforms and civilians. 
They are all targets.''
    An article published on a website connected to Al Qaeda shows their 
continuing determination to acquire nuclear and biological weapons 
titled ``Nuclear Warfare is the Solution for Destroying America.''
    The man held by Indonesia for his role in the devastating October 
12, 2002 Bali blast that ripped through a packed nightclub killing more 
than 190 people told the chief Indonesian investigator Major General 
Pastika that he wanted to ``kill as many Americans as possible'' in the 
attack.
    We have to assume that these people actually mean what they're 
saying. Americans feel more threatened than their allies do because 
Americans have been attacked and Americans continue to be openly 
threatened. The fact is Americans ARE more threatened than their 
allies. Osama bin Laden did not talk of millions of dead Europeans or 
Asians. He did talk of millions of dead Americans.
    It is the combination of dictators of remarkable brutality combined 
with an ideology that seeks the destruction of America and the death of 
millions of Americans that makes the near future so dangerous. Consider 
the sheer brutality in the world around us. From chopping off 
children's arms in West Africa, to killing more than 300,000 Iraqis 
under Saddam while using rape and torture as routine instruments of 
state policy, to misallocating resources so that the average height of 
North Koreans has shrunk several inches through malnutrition and the 
population lives on the verge of starvation, there are examples today 
of stunning brutality and savagery. To think that there are groups and 
governments who would not be willing to kill millions of Americans if 
they could is simply to hide from reality.
    The greatest threat to us is not directly from dictatorships 
themselves but from their ability to arm and educate terrorist groups 
into more effective actions against the United States. Hurting America 
and killing Americans distracts us and creates the opportunity for a 
more secure future for a network of dictators who routinely trade and 
work with each other.
    Third, this deadly mix of terrorists, dictators and weapons of mass 
murder is made more immediately threatening by the rise of a global 
system of information and transportation. Director of Central 
Intelligence George Tenet has described a ``Gray World'' of people 
smuggling, narcotics trafficking, traditional international crime, 
illegal arms deals, and illegal international transportation. This Gray 
World is the dark side of the stunning increases in standard of living, 
communications, and transportation that have marked the modern world.
    The Gray World is available 24 hours a day, 7 days a week. It is 
self-financing and highly profitable. It attracts smart, aggressive 
people who often have more resources and always have more agility than 
the public bureaucracies that try to stop them.
    The rise of terrorists with weapons of mass murder is moving the 
Gray World from a police matter to an issue of national security. The 
existence of the Gray World makes it possible for a very small 
terrorist group with enough money to acquire or rent the 
transportation, cross border access, and weapons needed to be very 
dangerous to us without having to develop an independent terrorist 
infrastructure.
    This combination of weapons of mass murder--especially biological 
weapons--with dictators of stunning ruthlessness, an ideology that 
hates America and whose members would rejoice at the death of millions 
of Americans and with the Gray World that could help them move around 
the planet, makes the next quarter century as threatening to America's 
survival as anything we have faced in our first 230 years of existence.
    This threat requires a strong focus on defense because it is 
impossible for us to be certain we can find and defeat the terrorists 
in our borders.
    I strongly support a worldwide campaign against dangerous 
dictatorships and against terrorists who seek to destroy freedom and to 
destroy America.
    I strongly support pre-emption as a doctrine and believe it is 
impossible to deter dictators like Saddam Hussein or Kim Jong-Il and 
terrorists like Al Qaeda.
    However the mathematics of the threat make it unlikely that a focus 
on offense will eliminate all potential attacks on America with weapons 
of mass murder.
    There are five reasons America has to build a strong defense and 
assume that even the best offensive efforts worldwide will probably 
block most threats but not guarantee our safety:
    1. Biological weapons can be created in areas the size of a 
kitchen. It will prove to be very, very difficult to find biological 
threats and preempt them.
    2. Even with more easily detected nuclear threats, the 
determination of our opponents to study us and to share with each other 
their new techniques is creating a system of denial and deception which 
makes it harder and harder for us to know what is going on. After a 
half century of studying North Korea, there is remarkably little we 
know for certain about that dictatorship. The rise of inexpensive 
tunneling and underground construction is making denial and deception 
even easier. Just as Iraq was much closer to a nuclear weapon in 1991 
than we thought, it is likely that some of our opponents will succeed 
in hiding developments from us.
    3. We have not yet come to grips with how interlocked our opponents 
and even some of our semi-allies are. There is a seaside village in 
Iran set aside for recreation by the large community of North Korean 
engineers working on the Iranian weapons programs. There has been a 
decade or more of interchange between Pakistan and North Korea on 
missile and nuclear weapons development. Serbian generals briefed 
Iraqis on the lessons of Kosovo. Across the planet there is a network 
of organizations and regimes that see America as a threat and who 
loosely but effectively cooperate to try to contain or defeat us. We 
insist on single country analyses (e.g., what is North Korea up to) and 
have had a remarkable lack of systematic analysis of the various axies, 
alliances and networks that are building momentum to arm themselves 
against the Americans.
    4. There are ungoverned areas of the world which are so numerous 
and so difficult to penetrate that there will almost certainly be 
effective sanctuaries for terrorist organizations. It does no good to 
speak of ``no sanctuaries'' when there are areas in which local 
governments have no control. An unclassified map from the Central 
Intelligence Agency that outlines the rural areas around the world in 
which there is little or no government shows just how formidable a 
challenge this is going to be. It is inconceivable that the United 
States will invest the resources to police all these areas. Therefore, 
there will be de facto functional sanctuaries in which terrorists will 
be able to hide. This map actually understates the areas of ungoverned 
sanctuary because it does not include the vast sections of third world 
cities in which no effective government prevails. This map both helps 
explain why it is so hard to find Osama bin Laden and Saddam Hussein 
and is a useful reminder of why even the best offensive strategy will 
need a powerful defense.
    5. We should be chastened by our inability to stop people smuggling 
and illegal drug smuggling. If we have several million illegal 
immigrants crossing our borders annually and if all our efforts to stop 
cocaine and heroin have slowed but not stopped the flood of illegal 
drugs, Why should we assume we will be more effective in stopping 
clever, persistent, thoughtful, determined dictators and terrorists who 
study us and exploit all our weaknesses?
    For all the above reasons we must have a strong defense in the form 
of an effective, well resourced Homeland Security system.
    Our working assumption must be that sooner or later a weapon of 
mass murder will be used in an American city.
    The Homeland Security system must stop as much as it can but even 
more importantly it must be able to recover and reconstitute American 
cities or even American society after an attack.
    If we are fortunate, this will prove to be a waste of money and 
nothing terrible will happen.
    If we are unfortunate, this will prove to be the margin of survival 
for millions of Americans and for America as a free society.
    The first step is for the Congress to educate itself about the 
threat of weapons of mass murder, terrorism and dictatorships. Every 
member of Congress should participate in war games at the National 
Defense University Congressional Wargaming Center to get some sense of 
how serious things could get and how rapidly they could become worse.
    The second step is for Congress to set metrics of tolerable risk 
and necessary reaction. If an engineered flu appeared tomorrow morning, 
how many American lives are we willing to lose for budgetary or 
bureaucratic reasons? If we are serious about saving lives then we will 
have to be much more serious about developing the biocommunications 
system that Secretary Ridge, Secretary Thompson and the Center for 
Disease Control have outlined.
    The third step is for Congress to understand how deep and serious 
the coming changes are in existing bureaucratic structures. Simply 
housing organizations together in a Department of Homeland Security was 
exhausting in its own right yet it is only a first step. Congress--
working with Secretary Ridge--must develop metrics of effectiveness and 
then force continuing change in structures and activities until the 
metrics are reached.
    The fourth step is to recognize how much of Homeland Security is a 
function of dual use. First responders spend virtually all their time 
on policing, fire fighting and similar vital but not national security 
behaviors. The time and resources needed for a national security crisis 
in our homeland have to be layered on top of existing activities 
without hindering the hard work already undertaken. In a crisis, our 
health system will be dramatically stressed but it is already working 
hard every day saving lives. The offensive system of overseas 
preemption is already stressing some of our National Guard and Reserve 
units and yet Homeland Security will have to place even greater 
responsibility on these organizations. Thus Homeland Security will 
inevitably involve a substantial overlap with existing activities and 
organizations and thus with existing committee structures and budgets.
    All of these considerations lead me to believe the House will need 
a permanent standing Committee on Homeland Security. The House will 
need to establish jurisdictional leadership within that committee in 
order to create an effective Homeland SecuritySec. At the same time the 
House will discover a number of concurrent jurisdictions as other 
Committees engage in legislative oversight of the normal, daily 
operation of institutions that have important jobs to do in addition to 
their homeland security role.
    Finally the House and Senate are to be praised for establishing 
appropriations subcommittees for Homeland Security. The House should 
also establish a subcommittee of the Budget Committee focused on 
Homeland Security. This issue is such a matter of life and death that 
the Budget Committee should ensure it has adequate resources for 
Homeland Security before considering any other budgetary matters.
    Here is a simple test for the Congress: Pass a joint resolution 
that lists the only committees that Secretary Ridge is required to 
appear before and the only committees that can require testimony in 
secret and the only subcommittees that can provide money. It would be 
humiliating for the Congress today to pass a resolution that lists 88 
committees and subcommittees. It would be absurd on the face of it to 
say that Tom Ridge has to report to all 88--yet technically that is the 
present situation. So Congress should--in public--respond to the Nation 
and explain exactly what it expects of the executive branch by 
organizing itself in a way so the executive branch can have an 
effective relationship with Congress.
    It is vital that everyone recognizes that our individual lives and 
our life as a nation are being threatened in horrifying ways that 
require new thinking and new efforts. President Bush and the executive 
branch have shown real leadership in responding to these new threats. 
Now it is time for the Congress to show equal leadership in 
reorganizing the legislative branch for the war on terror and for 
homeland security. Now is the time to protect our future, our lives and 
our children's lives.
    Mr. Foley. May I correct the record, Mr. Chairman?
    Mr. Diaz-Balart. Yes, sir.
    Mr. Foley. Before I am the subject of a small doll by the 
Appropriations Committee. I was trying to emphasize, Newt, that 
it is important to have a standing committee that can authorize 
appropriations, not just a committee to have oversight 
functions. I am not quite ready to suggest that the 
Appropriations Committee not have a role in the Department of 
Homeland Security. So I hope that is clear. Thank you very 
much.
    Mr. Diaz-Balart. I appreciate that clarification. I had 
understood that, but I think it was important to clarify.
    We have, as you know, been tasked with making a 
recommendation, this committee, the select committee, to the 
Rules Committee by September 30, in other words, in a year, 
2004, with regard to this issue. And then the Rules Committee 
may act, and obviously the House may then act at the beginning 
of the next Congress pursuant to those recommendations.
    This committee, obviously neither the subcommittee nor the 
full committee, have formed an opinion with regard to this 
matter as of now. I appreciated Speaker Gingrich's suggestions 
with regard to--and I ask for any others, Speaker Foley, with 
regard to what we might be thinking of doing now with a view 
towards what our task is in a year. We recognize that we will 
have to make that decision at some point. I mean, we know at 
what point. What kinds of things could we do in addition to 
simply discussing the seriousness of this matter with our 
colleagues now, in case this committee does reach the decision 
to make a recommendation with regard to making the select 
committee a standing permanent committee?
    Mr. Foley. Well, I would like to sort of endorse Speaker 
Gingrich's suggestion, that I think there needs to be if 
possible a consensus between the leadership of the two parties 
about how this will be approached in the next Congress 
regardless of which party is in the majority. And in the 
meantime, I think it very important to develop through the 
Speaker, the president Speaker, Speaker Hastert, some kind of 
system of coordination in terms of what will be required from 
the Department during this session of Congress. I think that 
should be begun as soon as possible. Otherwise, I suspect that, 
as we don't know what the future may bring and pray to God it 
doesn't bring any immediate additional serious threats to the 
country, the activity of the Congress is predictable in this 
area: It is a matter that is of such concern to the public that 
I can't imagine the committees aren't going to take the 
opportunity and subcommittees of other committees to call 
members of the Department of Homeland Security, Mr. Ridge, 
Secretary Ridge and others, all the assistant under secretaries 
from time to time, at a time when they need to be able to have 
their primary focus getting the committee in order.
    So some focus of oversight is vitally necessary. But also, 
the other side of the focus is that we can't have, I think, 
without very serious consequences just an open season on the 
leadership of this Department by every committee and member 
that would like to have an opportunity to put them on record in 
front of a camera, to be blunt about it. I understand that 
instinct, because it is a matter of such great concern to the 
public as well as to the Congress, but it is very dangerous.
    Mr. Diaz-Balart. Speaker Gingrich, any thoughts on what we 
can be doing now?
    Mr. Gingrich. I want to echo I think much of what Speaker 
Foley just said. Let me start by saying the two articles I 
cited from the last week about the biological threat, dozens 
more that you can find where al-Qaeda talks about plans, et 
cetera. I think it is important to have a sense of urgency. And 
so I would urge you to make the decision in principle on a 
permanent standing committee by this September 30th, not a year 
from now, and try to get the leaders of both parties to 
announce that decision in principle now.
    Second, I would urge you to, as I think this is appropriate 
for you and Chairman Cox to coordinate, but there ought to be a 
deliberate monitoring of the Department of Homeland Security 
interactions with the House, and once a month review that and 
then, as appropriate, urge the Speaker to issue modifications 
in authority. I mean, if it turns out that various and sundry 
subcommittees for whatever reason, I am not going to prejudge 
their motives, but for whatever reason are causing a level of 
diversion of executive leadership from the Department of 
Homeland Security, then it seems to me in relatively real-time 
you ought to be prepared to think it through, modulate it, and 
say, wait a second, this is why we have a select committee, or 
these are the three subcommittees that you need to report to on 
that topic. But some of that ought to be going on right now.
    Third, it seems to me you ought to have staff reviewing the 
Department of Homeland Security legal responsibilities and the 
overlaps that Speaker Foley earlier referred to, and look at 
sole lead and joint jurisdictions in a way that you could begin 
to prepare something which I think would take longer, which is 
now that we have agreed we are going to have this standing 
committee what is the exact nature of the reallocation of the 
authority and power to that committee? And that ought to really 
be driven by an interaction with the Department of Homeland 
Security leadership, looking at what is reality. I mean, what 
do we really have to deal with? Which things are primarily 
homeland security, which things are only incidentally homeland 
security? And I think that can be sorted, with all of it having 
some concurrent jurisdiction with the new standing committee, 
but with clearly Chairman Cox I think would report, they have 
more than enough big fish to try that they don't need to worry 
about a lot of secondary issues that they might have an 
interest in knowing about concurrently that are more 
appropriately in other departments.
    Mr. Diaz-Balart. Thank you.
    Ms. Slaughter. Well, I am sorry, gentlemen, I had to leave. 
I had a previous engagement this morning, and I am so sorry I 
had to go. I am happy to be back.
    I think probably most of us have indicated that at one time 
or another we had experience trying to consolidate committees, 
and we know how important it is. But this is the first time 
that Congress has ever tried to consolidate a committee to 
oversee a department that is really not set up yet, and that 
makes it extremely difficult. How do you think that 
concurrently, while they are struggling to put one together 
with the potential of 170,000 employees and a number of 
agencies to go? Do you see some kind of transition period where 
people who are presently overseeing, let us say, Customs and 
INS would continue to do that for a period of time? How in the 
world could we do it? It seems to me almost to be an 
insurmountable problem to try to do our work here to try to set 
up a particular committee when we don't yet have a department 
really to oversee.
    Mr. Foley. Just quickly, I would think the best thing is, 
as Speaker Gingrich has said, is if the committee could 
accelerate its work, make a recommendation for the 
establishment of a permanent committee of the House, standing 
committee of the House in the next Congress. While that may be 
difficult to do, I think it would be the best solution. I think 
the longer you delay the organization of a single responsible 
committee, the more you are going to fail to provide the 
necessary oversight at a critical time as the Department is 
going through these birth struggles and pangs in trying to 
bring the Department into a cohesive and effective 
organization. I don't think it should be delayed; I think it 
should be, if possible, accelerated. But, again, we recognize 
the difficulties of doing that.
    Ms. Slaughter. Well, if I had my druthers, I think the FBI 
and CIA would have been in there. It seems odd to me to have an 
agency known as Homeland Security without the intelligence 
agencies in it. And how much influence the committee could have 
in determining what is in the Homeland Security Department 
would seem to me would be another question that we ought to ask 
ourselves that we have not gotten around to.
    Mr. Foley. Well, the committee ideally I think should have 
legislative jurisdiction, obviously, as well as appropriations 
authorization jurisdiction. But the Speaker has standing 
authority to make decisions, to co-refer or to subsequently 
refer legislation to other committees. He can handle these 
problems as they develop. There obviously with the departments 
that are split, agencies that are split, some of it being in 
Homeland Security and some of it outside, I would think the 
traditional committees that have the oversight and jurisdiction 
over the part outside the Department should continue to 
exercise it.
    Mr. Gingrich. Ms. Slaughter, I think you asked an 
extraordinarily important question. I think I would say, to 
echo Speaker Foley, that the sooner the Congress makes clear 
the lines of authority, the easier it will be for Secretary 
Ridge to actually organize what he is doing. And I would have a 
very simple principle: This particular committee is really not 
about any normal function. This committee is about what does 
America have to do to minimize the danger of attack, to 
accelerate the response to that attack, and to recover after 
such an attack. And I think the committee should have a very 
focused effort in that direction, and then should have overlap 
with the normal daily operations of a number of other 
committees that are in fact dealing with an agency for other 
kinds of activities. But this core mission of the Department of 
Homeland Security really is life and death, and I think that 
the committee should be focused very intensely in that 
direction. And you raised a good point, which is, after a year 
or two, once we have finished reorganizing--it is a huge job 
that Secretary Ridge has undertaken, and he needs the Congress' 
help to get it done. Once we see what we need, it may well be 
that there are other modifications, if there is a Homeland 
Security Department, to legislation that Members will decide 
has to tweak the system or reshape the system. I think that is 
one of the things you want to make sure that this committee 
could come back and recommend to the House if they found that 
to be necessary.
    Ms. Slaughter. I found in discussions in whole, we talked 
yesterday to some people from home, first responders, they 
don't think we are getting much done here. And I don't know how 
the general public feels, whether they concern themselves with 
it at all, but I do think that psychologically there would be a 
lift by knowing that Congress has some idea of what we are 
going to be doing. And I think that Secretary Ridge has an 
extraordinarily difficult job and sort of inventing himself as 
he goes along. But it is so easy here to create something and 
so difficult ever to change it. So we do want to proceed with 
some caution, I think.
    Mr. Gingrich. Can I just say for a second, as I 
occasionally do maybe get myself in trouble here.
    Ms. Slaughter. That is OK. I do it all the time.
    Mr. Gingrich. I really think that one of the arguments to 
your colleagues in the House is that we have an obligation to 
prove the legislative branch can be as firm on itself as we 
want to be on Secretary Ridge or the executive branch, which is 
the natural pattern of this process which the Founding Fathers 
designed deliberately. And by that, I mean, every time somebody 
starts to make a speech about how Homeland Security isn't 
really up and running as well as it should be, ask them if they 
are prepared to have a standing committee. I mean, don't start 
talking about how the executive branch has to get better 
organized until the House is better organized. And I think that 
is a fair step. I mean, not that I am asking you not to 
criticize whatever is happening at the Department of Homeland 
Security, but I am saying we need to have a clear mechanism to 
be able to have oversight, to have hearings, to have reportings 
in a timely and efficient manner so that Secretary Ridge knows 
who he is working with, who can help him, and who he has to 
report to on the legislative side of our constitutional system.
    Ms. Slaughter. I think we have to be cognizant of the fact 
though that it may take us years to really get this in the 
shape that we think that it ought to be in, with lots of fits 
and starts.
    Mr. Gingrich. If I might, it probably will take us years to 
get where we want to get to, but we have to also be cognizant 
that the terrorists may not give us years. And I think we have 
to have a sense of urgency based on our enemies, not on our 
friends.
    Ms. Slaughter. I know. Thank you.
    Mr. Diaz-Balart. Mr. Linder.
    Mr. Linder. Have we bit off more than we can chew? We have 
got pieces of Judiciary, Customs, Coast Guard, Transportation. 
I don't know why the Agriculture people who have been watching 
our borders can't keep doing that. We tend to in this 
government overreact to everything, and I am beginning to 
wonder if it is time for us to, between now and next September, 
do some just tweaking the system. I think the most important 
thing they have to do is giving us intelligence so they can get 
the intelligence to the right location--the threat in Phoenix 
is not going to be the same threat in Las Vegas--and build a 
communications system where they can share this information. 
But it is a huge bureaucratic monstrosity.
    Mr. Foley. Can I make a comment?
    Mr. Linder. Sure.
    Mr. Foley. I have a somewhat jaded view of major 
reorganizations of governments. I think unless they are very 
well thought out and unless the stakes are very high--and they 
are obviously very high in this case--that to move the agencies 
of the Federal executive branch around in great measure and 
degree to get a little better symmetry on the table of 
organizations is a mistake, because the impact on Federal 
agencies when there is a major Congressional reorganization 
effort under way is generally to freeze decisions, to make 
administration more difficult, to make dramatic efforts to 
solve problems more hazardous. And, very frankly, people want 
to wait until the dust settles and find out whose department 
they are going to be in, whose under secretary they are going 
to be under, whose assistant secretary and deputy assistant 
secretary and bureau chief they are going to report to. And it 
tends to sap energy in the executive branch, confuse roles, and 
make it more difficult to achieve the purposes for which the 
organization was supposed to function.
    Mr. Foley. This is a decision that has been made and we 
presently have a Department of Homeland Security. I am 
sympathetic, sir, with your suggestion that maybe it should be 
tweaked a little bit. But again, that is something that ought 
to be done, if it is going to be done, sooner rather than 
later. I think a long process of kind of tinkering with the 
structure of the Department will not perhaps be helpful in 
getting the Department focused and orderly and functioning. And 
again, it is important that people who work in the Department 
of Homeland Security know that the Congress is ready to support 
and to give meaning to the oversight function in a way that is 
responsible and orderly. And I think that will be helpful to 
them in taking care of the difficulties of this large an 
organization coming together.
    I agree with, again, Speaker Gingrich. This is a challenge 
for the Congress. And I think it is not going to be well 
received in the country. There is no partisan here. Both 
parties are engaged in this effort and are committed to the 
purpose. But if the stories are--if the Department of Homeland 
Security cannot get organized because they are being driven 
crazy by requests from 88 subcommittees to come to the Congress 
and testify on particular matters of minute jurisdiction and 
then, when before the subcommittee or whatever, the whole 
process of review of their functions goes over and over again 
and the inquiry gets out of hand, if that becomes a public 
controversy in the press, it is going to cost credibility not 
only in the Department but in the Congress. And again, I think 
the public has a right to expect that this, being so serious a 
subject, that both branches will work hard to make it function 
well.
    Mr. Gingrich. Mr. Linder, I think you asked the key 
question about the evolution of what we are trying to do, and 
if I could respond based on the 3 years we spent in Hart-Rudman 
and try to describe what I think is the ideal Department of 
Homeland Security. It is, first, intelligence and prevention. I 
think you put your finger on a key part: Can we block something 
bad from happening defensively inside our own country? Second, 
ensuring that the capability exists for response, recovery, and 
rehabilitation; setting the standards and monitoring to make 
sure that those capabilities exist. But it is, third, whenever 
possible, contracting out and coordinating those capabilities. 
For example, the Northern Command in the Department of Defense 
is a significant piece of this. The National Guard component of 
that is a significant piece. Health and Human Services and the 
Centers for Disease Control and the Public Health Service have 
a significant piece of this. The U.S. Department of Agriculture 
in terms of its food inspection, which historically been the 
most successful on the entire planet. And then, finally, the 
cities and States who are going to have an ongoing everyday 
first responder, where Chairman Weldon has had a great personal 
relationship with firefighters and knows we are going to be 
relying on volunteers and professionals at the most local 
levels.
    I don't think you want to create an empire-building process 
at Homeland Security. You want to define very clearly what its 
mission is, and wherever possible with this setting, the 
standard and monitoring, you want those missions executed by 
the agencies, which is why the concurrency problem is going to 
be a very real one. There are clearly going to be overlaps and 
you have to think through where we leave jurisdiction back in 
the normal daily authorizing committee and where is the lead on 
making sure the homeland security component is being met in the 
new Permanent Homeland Security Committee.
    Mr. Linder. One of the biggest challenges was in the 96 
Olympics where we had all the jurisdictions of policemen and 
none of them could speak to each other. So how do you reach 
Roswell, Georgia and say you have got a problem there? The 
first challenge is to put together a communications overlay 
that can reach the right place. And I still think that the 
principal role of this Department is going to wind up being 
intelligence and handling of analysis. We don't want a national 
police force.
    Mr. Diaz-Balart. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Speaker Gingrich, I think you may have offered a suggestion 
that is perhaps one of the best, and that is because of the 
difficulty of reorganizing the committees in the Congress and 
the complexity of the task of this effort, that obviously the 
beginning first step is a declaration by the Speaker and the 
majority leader and the minority leader that we will have a new 
committee. And if we get the leadership committed to that, then 
everybody begins to think what it should look like instead of 
whether or not we can keep this from happening. Because it does 
seem like when you get down to specifics, the reorganization 
may not be nearly as threatening to other committees as you 
might initially envision, because as you pointed out, Speaker 
Foley, the functions of that Department are part homeland 
security but a whole lot of those functions are traditional 
activities of the agencies that were brought in. And it 
certainly seems that it would be reasonable to consider that 
those non-homeland security activities could remain in the 
traditional committees.
    It also seems clear that we may need to go through the 
process of looking at the functions of the Department as 
currently divided and organizational plan that is set out in 
the Homeland Security Act, and maybe certain offices could be 
clearly specified as being within the oversight jurisdiction of 
a particular committee. For example, we all know that there are 
a lot of folks that clamored to get on the Government Reform 
Committee and yet one of the benefits of Government Reform is 
that that committee always said we have jurisdiction over 
everything that goes on in the government. Just this month, the 
Government Reform Committee is having over a dozen hearings 
where it will bring in people from the Department of Homeland 
Security for oversight. And perhaps some of the management of 
computer technology functions within that Department, maybe 
that should be clearly within the jurisdiction of Government 
Reform as it does that do not relate to that core homeland 
security activity that Speaker Gingrich described.
    But the task can be accomplished. It is going to be a more 
complex and require more detailed study and decisionmaking, and 
the Rules of the House may contain more specificity on this 
realignment than we have been accustomed to in the past, but it 
is clearly a task that is going to take at least a year to 
accomplish. And until there is a declaration that it is going 
to happen, it is unlikely that, as we all know, that the time 
and energy that is necessary will be devoted to the task.
    So I appreciate particularly that suggestion, Speaker 
Gingrich. Every outside group and expert that we have brought 
before this committee has been uniform in their recommendation 
that this occur. And perhaps, Speaker Gingrich, would it be 
reasonable to ask maybe that you and Speaker Foley think about 
putting together maybe a letter from all of these folks that we 
have had before this committee, and others you may know, appeal 
to the Speaker and minority leader to make this decision so 
this will happen? I think the outside objective voice here is 
probably critical to making this happen.
    Mr. Foley. Well, I certainly agree that the suggestion that 
there be a declaration is a very good one. I think that is 
something that will put aside the question of whether or not 
but how it will be done. I would argue that the sooner it can 
be done, the better. I think if you have a declaration and it 
hangs out there for a year, the concerns about how we will 
actually be exercised and how it will actually be formed will 
fester and you may get more anxiety in the House as a result of 
that than, if you were, as the old saying is, would have done 
if it was done quickly. Also if it can be done in the time 
between now and the organization of the next Congress, the 
adoption of the rules is an excellent way to bring about the 
establishment of a committee, because those are rules to which 
the majority is committed and would, hopefully with the support 
of the minority, whatever that correlation may be in the next 
Congress, is something that can be done. And if we are faced 
with the reality that it is going to happen, then I think it 
might be possible to work it out as long as a year. But 
whatever it takes, I think it is important to make the 
commitment and to go forward. And it is important to have as 
much bipartisan consultation and support as possible at the 
leadership level and among the membership generally. And I 
think we will be interested. I can't speak for Newt, but I 
sense we would be interested in doing whatever we can to 
encourage others to encourage the leadership in both parties to 
undertake that.
    Mr. Gingrich. I want to emphasize what Speaker Foley just 
said. It is very important that it be a bipartisan statement 
and that both Speaker Hastert and Leader Pelosi feel 
comfortable in issuing the statement jointly. That it be a 
commitment so that no matter which party is in charge in the 
next Congress, this is over.
    And in response to your point about some committees seeing 
opportunities for more hearings that might necessarily fit 
their jurisdictional needs in the future, there ought to be 
some way for members of the--for Cabinet officers to appeal 
informally to the Speaker for more guidance in some of those 
things. I am not trying to put a burden on Speaker Hastert. But 
it does seem to me in the period that Mrs. Slaughter described 
as one of real change, real transition, and real uncertainty, 
that to have a Cabinet officer who is trying to defend the 
country also having to figure out--we are hard enough to 
understand when we are the insiders and talking to each other. 
And for somebody down the street to figure out, out of the 
following 22 requests, which ones do I have to go to, which 
ones are going to bite me if I don't go? And I think we owe 
them some guidance in real-time this fall and that can be done 
both informally and done by the authority of the Speaker, 
particularly if it is done on a bipartisan basis with 
consultations where both the leaderships agree this is a 
reasonable road map.
    I would hope that this subcommittee would take a little bit 
of the bit in its teeth and use this September, rather than 
next September, as a deadline for the specific question: Should 
there be a standing committee? The details take longer to work 
out. But getting the Speaker and Leader Pelosi to agree to that 
and announce it, I think is a huge step in the right direction 
and should be taken immediately.
    Mr. Diaz-Balart. We welcome the chairman of the Rules 
Committee who has joined us, who is also distinguished member 
of this subcommittee, and would ask if he has any comments or 
questions at this time.
    Mr. Dreier. I have just been over in the Senate testifying 
before the Judiciary Committee on the issue of the continuity 
of Congress and the proposed amendment and actually alluded to 
both of you on that question. So I am sorry that I have missed 
the testimony. I know people always come in and say that, but I 
will say if there is--are they done, is this it--I was just 
going to say if someone else had an exchange.
    Well, I look forward to your remarks. I will look at your 
remarks. I will say that I am predisposed, obviously, to 
thinking very hard about establishing another committee. You 
know, Mr. Speaker--actually both of you, Mr. Speakers, you 
remember a decade ago with the man sitting behind you, Mr. 
Hamilton, and I had the privilege of co-chairing that Joint 
Committee on the Organization of Congress, and we had a 
difficult time implementing the Hamilton-Dreier proposals a 
decade ago that dealt with some of the challenges that we had. 
And I recall the Senate and the House, we had 237 committees 
and subcommittees. And the old joke was if you saw a Democrat 
whose name you didn't know, it was, ``How are you doing, Mr. 
Chairman?'' because chances are he or she chaired some 
committee or subcommittee.
    So I have always been predisposed towards fewer rather than 
more committees. Obviously we want to enhance the deliberative 
nature of the institution. But you know, I just think it is 
very important.
    And I just heard your final remarks about the issue of 
taking it on and making a decision and a recommendation on it. 
Obviously that is what the subcommittee that Mr. Diaz-Balart 
and Mrs. Slaughter are working on. But it is no secret that I 
am predisposed to fewer rather than more committees. But 
obviously I am open to hearing any remarks as to how we might 
be able to deal with it otherwise. So I thank you both for 
being here. You never come and testify before me, but you do 
for Mr. Diaz-Balart.
    Mr. Gingrich. May I comment? I did, in fact, in your 
absence recount the role you played, particularly in 94, and 
trying to do as much as you could do to slim down the House 
rather than expand it. The point of my earlier testimony was 
this is the only potential standing committee which really has 
the defensive obligation that could involve millions of lives. 
And for the House to have not some centralized authority 
monitoring the Department of Homeland Security and creating an 
effective, secure relationship I think would be an enormous 
mistake and one which literally could over the next decade 
result in us having a tragic loss as dramatically greater than 
September 11. This is an unusual case. I don't think you are 
going to see me come up here and testify about new standing 
committees, but this is a very unusual moment in our history.
    Mr. Dreier. And that is very, very important. And I didn't 
see Bob Walker there on the other side who is an important 
member in this effort, too.
    Mr. Foley. We share views, without distinction.
    Mr. Dreier. Great to see both of you.
    Mr. Diaz-Balart. Mr. Meek.
    Mr. Meek. Thank you, Mr. Chairman. I really appreciate 
coming before or being on this subcommittee, and we hear from 
quite a few people. I believe Mr. Turner mentioned the fact 
that we all agree, usually when we get in here, about what we 
should do, what we need to do, and how we have to get there. 
Not only have you as past distinguished Speakers--and even the 
panel behind you--a number of years experience, but I am 
concerned about is we have a terrorist event, another one, if 
we are going to legislate in haste, we are going to start 
slamming things together after the fact, talking about who 
didn't do what, why something did not happen.
    And even on a full committee level, as good Chairman Cox 
tries to pull answers and response out of the Department, it is 
kind of like we may see a deputy secretary, and we may not see 
him or her again ever in this particular Congress, due to the 
fact that they are running to one of the number of committees, 
whatever chairman can carry the largest threat to get them 
there. Meanwhile, back at the ranch, the American people assume 
we are doing the right thing, we are pulling ourselves together 
and governing in a responsible way.
    And while we are in this war of the executive branch, no 
matter if it is Democrat or Republican in the future, this 
Congress carries the voice of the American people from many 
different corners of this land that we protect and serve.
    So I believe the leadership call that both of you seem to 
have good consensus on, on calling the House leadership 
together, Democrat and Republican, saying we have to move forth 
now, we have to make a commitment now--because serving on this 
Homeland Security Committee, when something does happen they 
are going to look at me and everyone else on the committee and 
say, What have you been doing? And meanwhile back at the ranch, 
the other committees are going to look at us and say, see, we 
really need to dissolve this select committee and need to get 
back to functioning the way we were functioning in the past and 
maybe we can prevent this lack of organization that we have.
    So the pivotal question is not if the American people are 
ready for a standing committee; but the question is, can the 
leaders come and say we are ready for a standing committee? I 
think past leadership in this room today, and present 
leadership obviously in this building and under this dome, are 
going to have to come together on behalf of the American people 
and say this is the right thing to do. Yes, some feelings will 
be crushed, but I think it is important that the Department has 
keen--not keen but direct direction from this Congress. 
Executive branch will be making decisions when decisions need 
to be made.
    So the more that we continue not only to talk about it, the 
more we have consensus from the outside of saying this needs to 
happen. We can have editorial writers write, but I think 
legislative leaders carry a lot more weight coming in, saying 
we govern and we have governed under haste before in a time of 
emergency.
    I think we now celebrate a time of somewhat calm waters, 
and rough in some areas, of making sure that we can make sound 
decisions and not do it in haste. And I think those chairmen 
and chairpersons that have jurisdiction over the Department now 
would appreciate that now versus trying to do something in 30 
days and trying to respond to whatever poll that might have 
come out saying that the Congress is not doing their job.
    I really don't need a response. I wanted to make that 
statement because it is almost like we are on the bench, all of 
us here, literally, and saying, Coach put me in the game, allow 
me to go in and do the things that we need to do on behalf of 
the American people and help this Department that is trying to 
organize itself. We are the leaders. So I think that is 
important.
    I know I said I didn't want a response, but maybe you want 
to point to some instances, if you would have had time as 
legislative leaders, to do something right to go back and fix, 
because you had to respond in a timely manner to be able to 
protect this country. Maybe that can serve as some fuel for us 
to deal with the leadership again.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you. Would you like to--
    Mr. Gingrich. I think you have summarized it as about 
aspectly as anybody could have. That is where we are. Either 
the leadership does it right or it is going to be in the 
doldrums until there is a crisis and people are going to wonder 
why we didn't do it right. I do think there are moments when 
the Congress does look at the Armed Services Committee when 
they reorganized the Defense Department, which was, after all, 
a real change. There was a Navy Committee and there was a War 
Committee. And the chairman of the Navy Committee called us in 
from Georgia, and had been one of the longest-serving Members 
of the House and had enormous power. He also ended up as being 
chairman of the Joint Services Committee. But I think that will 
be a perfect example to look at where the Congress reorganized 
itself to match up with the reorganization of the executive 
branch.
    Mr. Diaz-Balart. Thank you Mr. Meek. Mr. Weldon.
    Mr. Weldon. Thank you both for coming in. After talking 
over the past year to the bulk of the House and looking at the 
vote in the conference, Republican Conference, which was 
unanimous, I don't think the problem is with the Members. In 
fact, I would say that the overwhelming majority of the Members 
on both sides of the aisle want a standing committee.
    You know where the problem lies. The problem lies with the 
chairman and ranking members of the individual committees, 
because this is going to involve committee jurisdiction issues, 
and that is where I think--I mean, if we are going to be honest 
about this, that is where the convincing has to take place.
    The point that was made here about perhaps a joint 
statement by people as distinguished as yourselves is extremely 
important. But I think the rank-and-file members are ready for 
this. We wouldn't have had a unanimous vote in the conference. 
We wouldn't have had Democrats come out and speak openly on 
this. The problem we have is to convince the committee chairs 
and the ranking members that that this is good and, in the end, 
is the right thing we have to do for the country.
    But I want to also get to the point about how do we 
reorganize. I am not sure that we reorganize this committee in 
the totally proper way, or the agency itself in the proper way. 
And that is why I think additional work is needed. And both of 
you said that the committees have to look at where the 
jurisdiction should ultimately lie. I would suggest that 
perhaps a role that you both could play would be to co-chair an 
effort, perhaps working with some of the--some of the 
distinguished think-tanks in the city to look at jurisdictional 
issues, because you have led this body and led it for us over 
the past 10 years. And there are a number of ideas of ways that 
we can organize the homeland security jurisdiction-wise that 
are not now being addressed.
    Let me give you two. Our good friend mentioned 
communication. It is the number one problem we have in the 
country today. We do not have an integrated domestic 
communication system. I work with these people every day. It is 
a hodge-podge. Now, why can't we solve that? Is it simply 
getting the appropriation to buy more radios? Well, the bulk of 
the first responders are volunteer, so that is not an easy 
thing to do. It is more than that. It is the fact that we can't 
get the frequency spectrum allocation dedicated for public 
safety. We have no jurisdiction. That is under the jurisdiction 
of the Energy and Commerce Committee. Yet we can't get that 
communication system for the first responders because there is 
not enough frequency spectrum needed for their megahertz range 
to give us that coordination to help the entire country. So we 
are currently battling. Jane Harman and a bunch of other 
Members are leading the effort with Billy Tauzin to free up 
frequency spectrum allocation to give us the integrated system 
that we have to have in order to protect the homeland.
    Let me give you a second instance. I am convinced that the 
bulk of the problem with threats of weapons of mass destruction 
come out of the former Soviet states. After all, it was the 
Soviets under Communism that spent billions of dollars on 
weaponizing biological agents. It was the Soviet Union that 
spent billions of dollars on weaponizing chemical agents. The 
bulk of the research was done within the Soviet Union. The 
nuclear war--we just visited a site over the break. First time 
ever a delegation went into Krasnoyarsk-26 underground nuclear 
complex where the Soviets developed all their plutonium. They 
have tons and tons of plutonium stored there that any terrorist 
would love to get their hands on. We can do all the work here 
at home that we want, but if we got containers of plutonium 
sitting in a storage site in a mountain in Siberia that the 
Russians can't really protect, are we really protecting the 
homeland? We have no jurisdiction over those issues. We have no 
jurisdiction over the programs to go in with those agencies and 
in those areas where chemical and biological weapons were 
developed, which is a target of terrorists.
    The terrorist organizations are going after the former 
Soviet sites because that is where the capability exists today. 
They don't have to develop anthrax or smallpox because that was 
done by the Soviet agency as outlined by Ken Alibek in his book 
``Biohazard'' when he was number two over there.
    Part of our problem I think is going to be how to determine 
what the final jurisdiction of this standing committee should 
be. We don't want to be too large because then we are not 
effective, and yet we don't want to miss key components which 
are important for homeland security. So I would suggest to you 
that perhaps--and this is just perhaps off-the-cuff--perhaps 
the two distinguished Speakers could lead a bipartisan effort 
in coming up with a laundry list of suggested ways that we can 
deal with the jurisdictional issues which are at the heart of 
this problem. It is not going to make you friends with a lot of 
committee chairs. So we are asking you to help us bite the 
bullet.
    Mr. Gingrich. Would you like to bite first?
    Mr. Foley. My colleague and I will discuss this. But we 
certainly agree that there needs to be some action taken, and 
anything we can do, we would like to do that. I would be 
willing to do whatever we can.
    There is a great deal of thought that has been given to 
these problems outside in think-tanks and other organizations 
in this city, research organizations, and I think that can be 
helpful to the committee in its decision in the future. But 
ultimately the responsibility has to be taken by the leadership 
and by the committee chairmen and ranking members, as you said, 
as--and I tend to agree with you that the membership itself is 
going to be largely in favor of this, but I wouldn't 
underestimate the concern of the individual Members, too. They 
will probably vote on the record for this. But there will be 
some heartbreak as you are deprived of a jurisdiction that some 
Members may think properly belongs to the existing order of the 
committee structure. I don't want to overestimate it, but it is 
the most difficult problem I think I had as Speaker in personal 
terms, in terms of the relations between Members, was handling 
the conflicts over its committee jurisdictions, referral of 
bills, the fights between--this is all basically in my party at 
the time, not so much with the Republicans.
    Mr. Dreier. We have it now.
    Mr. Foley. It is sort of natural. Members have invested--
not for bad reasons, not for showboat reasons, they know the 
subject matter, they work hard at it, they invest their time 
and study and their commitment to it, and suddenly the 
investment of that time, effort, study and work is being 
removed as irrelevant when some other committee organization is 
being advanced. And so it is natural that there should be a 
sense of loss and resentment.
    And Speakers, I will say, occupy a very high office and a 
very powerful one, but when they come up against this kind of 
problem, you realize suddenly that there are limitations and 
that the Congress essentially is a body that is collegiate, and 
has to be, and has to function on the basis of some kind of 
consensus. And sometimes on some of these issues the consensus 
doesn't come easy.
    Mr. Gingrich. You made three points that are I think 
central. First, getting us directly involved, which I think 
reminded me of the old Baptist saying of ``You have gone from 
preaching to meddling.'' But I think Speaker Foley put it 
right: There is a matter of life and death for individuals, and 
potentially for the country. And obviously, particularly if 
Speaker Hastert and Leader Pelosi ask us to, we are going to do 
anything that is helpful to the Congress because we think that 
this is so vital.
    Second, I think the precise reason for getting an early 
statement that there will be a permanent standing committee is 
that you move the chairman and ranking member from trying to 
convince them that it is good to trying to convince them it is 
a fact. People react psychologically very different when they 
are accommodating reality than when we are arguing over 
potential futures.
    Third, I think the jurisdiction issue is actually fairly 
easy in principle. The principle ought to be that this is a 
mission-driven jurisdiction; that is, when there are questions 
of activities that are uniquely homeland security, protection, 
response, recovery, rehabilitation, this committee ought to 
have either sole or lead jurisdiction. But it ought to have the 
right to claim concurrent jurisdiction over problems as they 
impinge on homeland security. And the reason I say that is, 
this year the problem may be an issue of how do you change 
spectrum, the next year the issue may be one dealing with 
agriculture. We can't tell in advance where the intelligence 
trail and where the threat is going to take us. So I would look 
at sole or lead jurisdiction for anything which is directly 
tied to protection, response, recovery and rehabilitation. And 
I would look at some concurrency, not necessarily the ability 
to take the lead, but the ability to force action on any topic 
that is determined by the committee to be a matter of homeland 
security issues in terms of life and death.
    Mr. Diaz-Balart. Chairman Cox.
    Mr. Cox. Thank you, Mr. Chairman. Where Chairman Dreier 
just was lies the other larger part of this organizational 
problem, over on the Senate side, and I think we ought to pause 
and take stock of how much we have already accomplished in the 
House. It was the House that first decided--I was there in 
meeting with the President--that we have one authorized and one 
appropriated, and that was a pledge that the Speaker and the 
President took jointly, that the Speaker would work for this. 
When the Speaker talked to me about chairing this committee 
early on, he made clear that it was his intention that this be 
a permanent committee. When we passed H.Res. 5 in the House, it 
very clearly gave not just oversight but authorizing 
jurisdiction to our committee.
    And so right now this select committee, which by its nature 
is temporary in life, is already beginning to do the work that 
we are talking about here. We have been authorized to go out 
and put together the same complement of staff that other 
standing committees have. We just this week are moving into our 
new offices in the Library of Congress where we have space for 
78 full-time staff. We are attracting, just as is the 
Department of Homeland Security, the kind of expertise that is 
necessary to address this new discipline.
    Homeland security is all about sharing. It knits together a 
variety of disciplines that never before were conceived of as 
one. And so while we have experts in nuclear weapons or 
biothreat or chemical or border security or what have you, we 
haven't had the kind of renaissance discipline that is 
necessary to make homeland security work, and in fact the 
organizational challenge has been to take missions which were 
sometimes at the margin, sometimes somewhere in the center of 
an overall piece of an agency's jurisdiction, and piece them 
together with other complements that lie elsewhere in the 
executive branch.
    It is like the old Alfonse and Gaston routine where the 
ball drops between the center fielder and the right fielder and 
they all watch in the stands. We have now redefined the mission 
and there is now a centerpiece of that mission. We are going to 
have here in the House by the end of this Congress a truly 
expert staff that complements what they are building over at 
the Department. As you know, the staff director, Doctor John 
Gannon, was one who, like you, was there before 9Sec. 1. He 
talked about the Terrorism Commission and the threats that you 
pointed out. Doctor Gannon as the chairman of the NIC, wrote 
the report that said that al Qaeda could fly airplanes into the 
entire buildings in Washington, the White House, the Pentagon 
and so on. We had that information beforehand. These people are 
now working here in the House of Representatives.
    I want to make one other point, because Congressman Meek 
raised this and he is absolutely right. There are 88 committees 
and subcommittees included with the Senate. And it is true that 
witnesses from the Department are called elsewhere to testify 
and they are testifying in too many places and they have too 
many masters. But here in the House, one of the functions of 
the select committee has been to coordinate the request by 
House committees, and it is working fairly well. We have eight 
full committee chairman on the select committee, and those 
times when a committee wants to assert its own oversight 
jurisdiction over the Department, we have had joint hearings 
with the select committee so as not to replicate it, and all of 
the requests from the House are coming through our committee 
and we coordinate that with the Office of Legislative Affairs.
    And I want to ask you therefore about how, if we have a 
clear direction, the Speaker has a goal, and we have a 
resolution that requires us now to take the next step and 
consider how in September of 2004, how do we deal with this on 
the other side of the Capitol, because we are going to have a 
bear of a time conferencing legislation and so on if we don't 
get the Senate to act as well. We led them on appropriations 
and they followed. Now we are leading them on authorizing, and 
will they also be made to follow?
    Mr. Foley. Well, if I can jump in here, Mr. Chairman, I 
think one of the two bodies often takes the lead. My 
recollection is that the Senate established an intelligence 
committee before the House and the House followed. And for a 
time, the Senate Committee on Intelligence was the only 
existing organization of that kind in the Congress. I think 
each body has to make its own judgment, obviously, but in part, 
it is not only important that it be able to do so, but because 
it has to structure the institutions of its committees to the 
culture of the body. And there are two absolutely unbelievably 
different bodies.
    I used to, as I was saying before getting to the table 
here, I served with George Mitchell, the majority leader of the 
Senate, and he used to have a couple of phrases like ``99 is 
not enough,'' and that he had the best developed patience 
muscle in Washington. He didn't have, Mr. Chairman, a Rules 
Committee, and he constantly complained--he had a Rules 
Committee but it had an entirely different function.
    So we have to make a decision on this side. And I think the 
wisdom of the decision to establish a single responsible 
committee will impress itself on the Senate.
    Mr. Gingrich. It may surprise you, but one of the things 
you learn, or at least I learned by being Speaker, was to have 
greater respect for the authentic uniqueness of the Senate, and 
that it really is different and it was designed by the 
Constitution to be different. If the House does the right 
thing, two pressures will emerge immediately. The first is that 
lots of Senate committees will find they are conferencing with 
one highly informed, effective House committee and will begin 
to drive them nuts because they won't have the overlapping 
information that will be centralized in the House.
    The second thing that will happen is that the CQ or 
National Journal, Hill or Roll Call, will publish a chart that 
will show the Senate's X number of committees and subcommittees 
and the House's new committee. And that chart will exist about 
a week before Members of the Senate at their Tuesday lunches 
will begin chatting with each other and say, We have to do 
something. It may be a 2- to 4-year lag, but it is going to 
happen, and it may happen faster than you think. They are very 
aware I think in the Senate of how serious a threat this is, 
and they can't go back home and say we did nothing.
    And I think that is another reason why if the Speaker and 
the leader were to announce this fall that this was going to be 
a permanent committee, you would see a dramatic acceleration of 
evolution in the Senate, watching the House lead the way on 
this one.
    Mr. Diaz-Balart. Ms. Dunn.
    Ms. Dunn. Thank you very much. I think first I want to 
compliment you, Mr. Speaker, because of your written testimony 
and the clarity that it showed. And, David, I hope you have a 
chance to look at it. It is really important because it brought 
back to me the reason why I wanted to take time from all my 
other responsibilities to serve on this committee, because we 
have to bring focus to this effort. And we are living in a new 
world today.
    And I just wanted to say one other thing to you, 
Congressman Hamilton, and we will have a chance to question you 
after your testimony, but I very much enjoyed having the 
opportunity to serve with you and Bob Walker and David Dreier 
on that phenomenal restructuring committee when I first came to 
Congress as a freshman, not knowing what I was talking about 
but learning a lot in a short time; at the suggestion of our 
Speaker, going to call on all the chairmen and the ranking 
members of all the committees to get their sense as to how we 
can make changes.
    So to some extent, I share Chairman Dreier's inclination to 
keep that committee structure as controlled and minimal as 
possible. But I think in this case my worry about something 
else is far greater, and that is something that has come up in 
the written testimony of a couple of you. That has to do with 
the way Congress has a static setup. And I am very fearful that 
the Congress is not able to respond as well as it needs to be 
in the modern Information Age when criminals are all over the 
world and hidden in those places that Speaker Gingrich talked 
about, where we can't get a grip and can't really be expected 
to solve the entire problem. But I really think it is important 
now to look at the potential of the standing committee that is 
going to focus on these problems and focus on the 
vulnerabilities and the threats of vulnerability and try to 
plug those holes.
    So in this case, I think it is vitally important that 
Congress do as we are doing in this hearing today and as we 
have been doing as part of our committee in the last 8 months 
to get very focused on our goals. I very much like the idea, 
Mr. Chairman, of having this group sit down with the Speaker 
and the leader and talk to those two people about an early 
decision and an early announcement that we will become a 
standing committee so that we can focus all of our incredible 
abilities on this committee and the whole committee as one 
toward making this happen and making it happen appropriately.
    We may not be able to solve the problems in the Senate. I 
mean, we fought over that in our committee 10 years ago. That 
is something that we don't control. I agree that a good 
standard and a good example will lead to actions on their part. 
I just really, really feel it is important for a standing 
committee to come out of this. I hope that the four of you will 
decide as a group that you are willing to sit down with the 
leader and Speaker, and Chris and I and Jim Turner will be 
happy to go to our subcommittee and committee members to decide 
and discuss how important this is to make this decision right 
now. Otherwise I think our focus--I think we are dissipated in 
our energies and I don't want to see that happen.
    I mean, my thinking over the last few years as I watched 
Congress in general, it makes me fearful in lots of ways. In 
the past we had plenty of time to talk about whether we should 
have an energy committee or whether we should do away with 
three major committees. I don't think it would have happened 
out of the Joint Committee on the Organization of congress, 
because you had a new committee chairman and they were willing 
to go along with these changes. It is very, very hard. I think 
the irony of the whole situation is that the public has no 
understanding of this crust of power that stands between us and 
making changes that will allow the Congress to be more 
respectful of modern-day problems.
    So I guess my question would be, gentlemen, if you would 
care to comment, what kind of a problem do you think that is 
and are we at a point where we ought to have another committee 
on the organization of Congress in the broader sense--
    Mr. Dreier. No.
    Ms. Dunn.--after we solve this problem we have right now, 
which I think is a matter of life and death and must be looked 
at carefully and very immediately.
    Mr. Foley. I think I would come to the conclusion that this 
particular organization is so important that it needs to be 
undertaken energetically, but I wouldn't want to advise that 
another overall review of all the committee structures be 
undertaken. That is such a monumental task. And our experience 
in the past has been that it is a distraction. It creates so 
many problems from the standpoint of rivalries and tensions and 
movements inside the Congress that perhaps it ought to be 
undertaken sometime in the future again. But I think right at 
the moment, we can get some specific reorganization on matters 
like this. That would be great progress and very important 
progress.
    And I think to try to throw the whole question open of 
whether it should be a small business committee, veterans 
committee, or whether there should be various kinds of changes 
and structure of standing and select committees would take a 
lot of work. If it is done, it ought to be done in a very low-
key, long-term basis, not one that has to produce results on a 
fast time line.
    Mr. Gingrich. I would say just a couple of things. First of 
all you pointed out, correctly, and it is something I should 
have said earlier, that it was Speaker Foley's willingness to 
engage Chairman Hamilton and Chairman Dreier in looking at all 
that at a time when he didn't have to, to review the committees 
and set the stage. That is why Mr. Dreier was to be so 
effective in the fall of 94, and what we did was at a unique 
moment and at a fair amount of cost even then.
    My first advice is to be cowardly, and something that I am 
not pushing forward, but in this case if you can get the 
homeland security piece done, there is another Congress coming 
in 2005 and that would be a good time for you to raise that 
question. But I wouldn't think about it in the process of 
trying to get this done.
    The other concern you raised, and I just want to say I 
think I speak for Speaker Foley on this. We are here because 
Chairman Diaz-Balart asked us to be. We both used to be in the 
office, which was very busy and very hectic, and we had many 
old friends come and visit us. I think if the Speaker and 
Leader Pelosi would like us to come in for any purpose--and I 
suspect Mr. Walker and Mr. Hamilton would do this--we would 
always be honored to come in. But I don't think we are 
appropriately crawling out of the blue from past leadership to 
say we have three things you should do. To the degree you want 
to recommend that and to the degree they think we are useful, 
we will do anything on this topic because it is life and death. 
But we do recognize and respect the burden they carry and the 
duties they have.
    Mr. Foley. I agree with that entirely.
    Mr. Diaz-Balart. Mr. Goss.
    Mr. Goss. Thank you, very much, Mr. Chairman. I think this 
has been very useful and I don't think there is any 
disagreement about what to do, but the problem is how to get it 
done. Any advice we can get you from you will be helpful 
because of your unique role in this institution.
    I do remind myself of the track record the institution has 
with dealing with the war on drugs. And as I recall, it was the 
same number of committees, and actually we haven't really 
solved that problem yet. Most of the successful action was 
going on in the war on drugs. It was coming out of the 
Speaker's office because of the Speaker's decision to get 
serious about it, and I believe we created a separate drug task 
force to advise the Speaker and override that. But I hope that 
is not the fate of how we deal with this issue because I think 
that would be a mistake. That is not the model we should work 
on, even though I applaud Speaker Hastert's strong initiative 
on the war on drugs.
    One of the issues that has been raised in the table of 
organization and chart discussion of how you divide power up 
here is, would we be better off of getting a permanent select 
committee as we have done in Intelligence, or should we be 
talking about a full standard committee? Is it easier to do it 
one way or the other? And I don't know.
    And flowing from that, I do have a specific question that 
does get down--too far down in the weeds for both of these 
distinguished witnesses, but as you know in the 1947 National 
Security Act, we passed something called the national foreign 
intelligence program. And we do not have a domestic 
intelligence program. We all know that to succeed on the war on 
terror, we are going to have to have good information and some 
linkage that allows us a preventive type of law enforcement 
action to take place. That is tricky territory to be in when we 
debate things about civil rights and human rights. We are 
already having that debate in the PATRIOT Act.
    I am curious to know how you would mold in the intelligence 
problem, given the fact that it is a foreign intelligence 
program only that is authorized in the United States of America 
to deal with the domestic information requirements in order to 
forestall further acts of terrorism. How do you put that into 
the table of organization chart, given the constraints of the 
war and the requirements we have through protocols and practice 
with the Intelligence Community to safeguard intelligence 
information?
    Mr. Foley. It is a very important question, Mr. Goss. I am 
not really ready to give you an easy answer to it. It involves 
very, as you know, very deeply held concerns on the part of the 
American people that if we develop an internal kind of 
intelligence agency which has the purpose in effect of 
gathering information on the domestic scene, we will be 
creating something that our country has avoided throughout all 
of its history. And I don't think there is any quick answer to 
that. But there obviously is going to be a need to develop 
information on activities that are taking place in the United 
States that could lead to acts of violence, to serious threats 
to the domestic security, and I think those deserve very, very 
careful thought.
    I am not sure how it can be done at the moment, but I think 
this is something that perhaps the Intelligence Committee 
itself ought to be thinking very, very seriously about and 
making recommendations on in addition to your general oversight 
responsibility. It is probably the most flashpoint issue that I 
can think of in terms of this kind of organization problem, 
whether you can create some kind of structure which would 
incorporate something that might be considered a domestic 
intelligence activity.
    Mr. Goss. As you noted, the question has been side-stepped 
already in the DHS formation. The Intelligence Fusion Center 
has been taken conveniently out and put into a legitimate, 
properly authorized program. The question of whether or not you 
introduce homeland security information into that fusion center 
is beginning to creep up, so we are already confronted with the 
issue. I don't have an answer. I will be happy to have the 
guidance. And there are plenty of other interested people, as 
you know. It is not chairmen and staffers. It is the 
constitutional authorities and everything else. This really is 
bedrock to us.
    Mr. Gingrich. I think you are faced with--first of all, you 
have managed to bring up one of the most difficult questions in 
terms of clarity of powers. I mean in a very real way, our 
protections against the state are at the heart of why the 
American political system has been freer than any other system 
that exists for 225 years in human history. You know giving the 
State untoward power as it relates to individuals is really, 
really dangerous and something the Founding Fathers with their 
experience at the end of the Civil War and their experience of 
corruption of government in the 18th century were very, very 
alert to, which is the right to trial by jury as a defense 
against the judge, by the way, because the judge was an 
instrument of the king. It is really important to remember that 
the core of our Constitution is defense against the state, not 
defense against foreigners, so this is a very tricky area.
    Now, my initial reaction is to recommend that informally, 
the Homeland Security Committee, the Intelligence Committee, 
and the Judiciary Committee find a mechanism for starting to 
discuss this, for this reason: There are four layers of 
problems. The first is that the very scale of a threat is going 
to impose on us a real-time information requirement that is 
horrifying. I mean all the people complained, did the agencies 
know and do things before September 11? Wait until the first 
time a weapon of mass murder is used and we discover that 
somebody knew about it over here but were legally prohibited 
from telling these people over here, and that is very likely. 
The first thing is to recognize the scale of the threat imposes 
a real-time information requirement unlike anything we have 
ever seen.
    The second is to recognize this is compounded by what 
Director Tenet described as the ``gray world,'' because in many 
ways the Drug Enforcement Administration may be as central to 
learning information as the CIA or the NSA, because it may turn 
out that moving a biological inside cocaine or heroin is the 
most efficient way to cross borders and it is just a matter of 
money and relationships. The IRA was educating the FARC in 
Colombia about urban guerilla warfare.
    The third challenge is to really distinguish systems and 
methods. I mean, I called early on for splitting the FBI. I 
think it is stunningly dangerous to have people who work bank 
robberies and kidnapping learn how to work terrorism. I don't 
want the aggressiveness in crime enforcement where I want them 
to protect my rights as a citizen, and be careful what I want 
in antiterrorism where I want them to protect my life and be 
aggressive. And we are asking the FBI to have a schizophrenic 
culture. And I would urge the Congress to study whether the FBI 
should stay as one agency.
    How do you get this to happen so you are simultaneously 
getting a worldwide transparency of information flow protecting 
your sources and methods and having very different cultures 
talk with each other while protecting the civil liberties of 
the American people? And I think--I think you put your finger 
on if we survive as a country over the next quarter of a 
century and we remain a free but also a safe country, solving 
this one is one of the two or three highest-value questions. 
And I think it takes Judiciary, Homeland Security and 
Intelligence working together in order to begin to build that 
base.
    Mr. Foley. That would be a big start. I am sure you have a 
clear idea of what we are recommending to do. But just to echo 
what we both said, this is a very, very serious problem and a 
difficult one. I think the idea of getting three committees 
involved is a very important one. By the way, I served on the 
special commission that was appointed in 1991 to review the 
security procedures of the Federal Bureau of Investigation 
following the Hanssen spy case, and we issued a report which 
probably has gone the way of most reports. But a part of the 
process of that was to look whether the FBI's culture had 
become so addicted to the typical kind of law enforcement--bank 
robbery, white collar crime--that it was unable to function 
effectively as a counterintelligence agency. And the 
suggestions were made to create a new agency to do 
counterintelligence work or to make the FBI exclusively a 
counterintelligence organization and create a new FBI to do the 
traditional crime enforcement. And finally we backed away from 
that idea and we have the traditional role today.
    Mr. Goss. That report was read and digested and we ended 
up, as we usually do, about halfway to nowhere in the 
recommendations. It is not working as well as I hoped, but 
there is an improvement over when you did the report.
    Mr. Foley. Just one thing. As a result of serving on that 
commission, I had very impressive credentials like an FBI 
credential, had my seal of the Department of Justice; Thomas S. 
Foley is a special commissioner to investigate the procedures 
of the Federal Bureau of Investigation, signed by the Attorney 
General. So I decided I would take it to the airport so I could 
get through the security lines. And when I presented this, I 
thought monumentally impressive, document to the people 
checking the lines, they looked at it very carefully and said, 
Don't you have a driver's license?
    Mr. Cox. We can get you one from California.
    Mr. Diaz-Balart. It has been a privilege to have both of 
you here. You have honored us with your presence. Thank you so 
very much. Your testimony has been extremely helpful. Thank 
you.
    Our second bipartisan panel is also composed, as I stated 
earlier, of two extraordinary former colleagues, Lee Hamilton 
and Bob Walker, with long experience in--not only in the House, 
having served with the distinction of having chaired one or 
more committees, both of our panelists, both were also heavily 
involved in reform efforts in Congress and in the House with 
regard to the House and the Congress in general.
    As I stated before, Mr. Hamilton chaired the 1993 Joint 
Committee on the Organization of Congress, and Mr. Walker was a 
key member of that panel. We welcome them both and thank them 
for having patiently waited and at this time would recognize--I 
wouldn't dare tell you what order to go in. Really, it is up to 
you.

    OK, Mr. Walker.

STATEMENT OF THE HONORABLE BOB WALKER, A FORMER REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Walker. Thank you very much, Mr. Chairman. It is a 
pleasure to be here.
    I was with, the other day, the head of the Strategic 
Command, Admiral James Ellis. He told a story about being in an 
international conference at which a Frenchman stood up at one 
point and he said, I think everything that needs to be said has 
been said but not everyone has said it. I feel like I am in 
that position here right now, because much of what I heard our 
two distinguished colleagues, the two former Speakers, say a 
few minutes ago is certainly something that reflects my point 
of view.
    You have my written testimony. I ask unanimous consent that 
it be included in the record.
    Mr. Diaz-Balart. Without objection.
    Mr. Walker. But let me just make a couple of points that I 
don't think were covered completely in the previous panel, and 
that is it seems to me that the real challenge in all of this 
and the reason why you need to go to a different structure than 
you have now is to gain the ability to horizontally integrate 
policy decisionmaking.
    The fact is that in business today, in much of what we 
understand about how you gain efficiency, we are coming up with 
systems that, instead of vertically managing problems, we 
horizontally manage. We come up with systems of systems and 
then families of systems, and it is exactly what is happening 
in the Defense Department at the present time as they seek to 
transform that institution. It is exactly what is happening in 
major businesses as they are seeking to get rid of all of their 
internal artificial silos and put in place an ability to look 
across problems when you are seeking a common goal.
    It is that problem the administration is faced with when 
they sought to integrate all of the problems that relate to 
homeland defense. So what they ended up doing was finding that 
they had an inability to coordinate all of these multiple 
agency jurisdictions, and they found that in the case of 
attempting to do something in Homeland Security that literally 
the government becomes dysfunctional. Because what you get is 
agencies clashing with each other, priorities end up being 
different, and then you end up with bureaucratic jealousies 
among the various cultures and they simply can't get the job 
done. So the idea here was to try to have a common culture 
around the Homeland Security with the new department.
    Now, the problem is that that new department then faces a 
legislative situation that has not gotten rid of all the silos 
and in fact is erecting new silos as we speak to address some 
of these issues. It seems to me that the only way you get 
around that is to find some way of having a horizontally 
dedicated committee, and that would be some sort of a permanent 
standing committee.
    In a sense, the appropriations subcommittee that was formed 
as a part of the exercise is the right model. They in fact can 
look across the entire department and help set priorities 
without going to a multitude of different jurisdictions. But 
the problem with that subcommittee is that it only looks with a 
1-year horizon. And if there is any department that needs to 
have a multi-year horizon it is certainly the Department of 
Homeland Security.
    The other point that I would make is that it seems to me 
that Congress has on a couple of occasions been able to wrestle 
with these kinds of problems. You do it when you have a 
political problem. In the case of the Financial Services 
Committee, you were in fact able to reach and change 
jurisdictions and do a number of things in order to address a 
problem that was largely a political internal problem, but you 
solved it with reorganization. It seems to me that this is an 
inherently even more difficult problem.
    You did the right thing on Financial Services. I think you 
modernized it to the point that it now addresses the broad base 
of that industry much better than the previous kind of 
structure did. That is a challenge across the board.
    I probably disagree with the two Speakers on the need for 
an overall organization effort. I understand the sensitivities 
of it and how difficult it is, but I do think that Congress 
right now is probably not organized in a way that really 
reflects modern American society. As a result, what you end up 
with is behind the curve in policymaking and behind the curve 
in terms of real decisions; and that there is a need to look at 
Congress as it reflects an economy that has totally changed 
over the last 20 years and a world situation that has totally 
changed and see to it whether the various institutions of the 
Congress in fact fit with what needs to be done.
    But the first step that needs to be done is to have a 
standing committee with real jurisdiction to properly authorize 
over a long-term basis, and I would hope that that is the 
conclusion that this committee comes to.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you.

          PREPARED STATEMENT OF THE HONORABLE ROBERT S. WALKER

    Mr. Chairman, thank you for the opportunity to testify before your 
subcommittee on the issues of potential congressional reforms in light 
of the issues raised by the new Department of Homeland Security (DHS). 
In particular, it is my understanding that you are examining the 
implications for Rule X dealing with committee jurisdictions.
    There are two areas I would like to cover in my testimony: (1) the 
need for unified jurisdiction in the House for addressing policy issues 
related to the Department of Homeland Security coupled with the need 
for changing the rigid structures which now oversee the activities at 
the Department of Homeland Security and (2) the implications of the 
decisions made about committee jurisdictional questions on the 
Department of Homeland Security for other reorganization needs.
    First, the need for unified jurisdiction for addressing policy 
concerns at DHS is paramount. The Department resulted from the 
Administration's inability to coordinate multiple agency jurisdictions 
to accomplish defined security goals. As in so many of our modern 
issues, the Federal Government becomes dysfunctional when multiple 
agencies are involved in addressing a common goal. Agency cultures 
clash, funding priorities differ and bureaucratic jealousies too often 
outweigh the accomplishment of the overall mission.
    Many of those problems stem from the legislative organization that 
confronts executive agencies. Their priorities are set and their 
funding determined by committees and subcommittees that are structured 
to deliver policy and funding inside vertically structured frameworks. 
The problem is that the vertical organization of congressional 
committees and subcommittees inside a programmatic world which is 
increasingly horizontally organized.
    The appropriations subcommittee formed to address DHS needs is able 
to look across programs and the individual agencies within the 
department and set priorities based on a broad overview. Therefore 
organizationally that structure works. However, that subcommittee's 
limitation to one-year funding profiles does not adequately address the 
need the department has for multi-year commitments in its programs.
    The formation of a select committee to oversee DHS policy was a 
step in the right direction. But the committee is essentially a 
membership made up of senior leaders from other committees determined 
to keep their individual jurisdictions in DHS affairs. The appearance 
from the outside is that the select committee serves as an information 
gathering exercise for other committees to use in furthering their own 
stovepiped, focused activities. Instead of assuring better coordination 
for the horizontal programs needed at DHS, the continued rigid 
structures in Congress result in mixed signals and bifurcated policy 
input.
    In my view the select committee should become a standing committee 
with appropriate jurisdictions transferred to it. At that point, the 
department's policy request could be considered inside a proper 
framework with attention to the long-range implications of policy 
concepts. Such a committee also would be a true working partner with 
the appropriations subcommittee. This proposal reflects my belief that 
the difficult reorganization done by the Administration to address 
homeland security needs cannot be successfully implemented if 
frustrated by outdated and rigid institutions on Capitol Hill.
    Mr. Chairman, I have become increasingly concerned that the 
committee structures and jurisdictions in the Congress no longer 
reflect the realities of our nation's policy needs. The homeland 
security issues, which transcended multiple agencies and programs, 
forced the Administration to form the new Department. That shifted the 
problem to Capitol Hill where Chairman Bill Young, to his credit, 
recognized the need to have a single subcommittee interfacing with the 
new Department. And the reality of a changed appropriations situation 
made the select committee decision entirely credible.
    However the crisis in homeland security is but one arena where 
better coordination of policy is required. The Defense Department has a 
major transformation program underway, but I attend conference after 
conference where there is a real concern that congressional 
organization is not prepared to deal with the realities of that 
transformational movement.
    Let me give you one example. The Air Force, NASA, DDR&E, NRO and 
others are putting together cooperative programs in space policy. 
However, when they come to Capitol Hill for funding and policy for 
those efforts, they are faced with a collection of jurisdictions whose 
view is limited by the silos in which they function. Joint programs 
demanding cross-pollinated funding are often put on the back burner 
because they appear to be no one's particular jurisdiction. Thus, 
horizontal programming, which uses information to achieve efficiency, 
is lost in government management.
    My point is that what you have found to be true about Homeland 
Security applies equally in many other arenas of the modern American 
economy. Wisely you decided to combine the financial services under one 
committee and other such actions would make sense in the future.
    The Department of Homeland Security represents a challenge for 
congressional organization. How you address that challenge would be a 
signal about the willingness to do other needed changes in the future.
    I certainly realize that there are no issues more vigorously fought 
than jurisdictional issues on Capitol Hill. But you asked for my input 
and here it is--if Congress is to remain relevant to the real policy 
needs of the country and if Congress is to put itself in a position to 
lead on issues not just follow, Congress must do the hard thing--
restructure itself to respond to the demands of the 21st Century 
American Society.

    Mr. Diaz-Balart. Mr. Lee Hamilton, welcome.

       STATEMENT OF THE HONORABLE LEE HAMILTON, A FORMER 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA

    Mr. Hamilton. Good morning--or I guess good afternoon now.
    I have sat in this chair under much more difficult 
circumstances than today. It is nice to be here where there is 
so much unanimity and good to see very good friends again.
    The problem for me, of course, is how I add any value to 
what has already been said by Bob Walker and the two Speakers. 
It may be helpful for me just to state very quickly what I 
think the fundamental reasons are for having a permanent 
committee in the Congress.
    Speaker Gingrich made the point very, very well, that the 
government has no more important responsibility than to defend 
its people and the American homeland. Congress and the 
President responded. You set up a Department of Homeland 
Security. My impression is that the creation of the Department 
is the easy task. The really difficult task is the 
implementation of the work of the Department.
    In everything you do in reorganization, government can get 
so caught up in the problems of reorganization and the 
difficulties of it that you do not pay enough attention to 
dealing with the problems that you were trying to reorganize 
for and so reorganization can sometimes divert your attention 
from the task in front of you.
    Having said that, I think the Department is the correct 
step. But what an enormous irony it would be if the Congress 
passed a bill as we did--as you did--setting up a Department of 
Homeland Security for the executive branch and then didn't do 
anything itself to get their house in order to deal with 
homeland security. The question then really becomes, for me, is 
how the Congress can make the implementation of this new 
department and the policies that it represents a success; and I 
don't think you can under the present organization.
    Now, as Chairman Cox said a moment ago, I think you are off 
to a very good start in the 108th Congress. You have set up 
this Select Committee on Homeland Security. That is exactly the 
right thing to do. I don't believe the Department of Homeland 
Security will succeed in its mission unless you have 
constructive and vigorous and informed oversight of the 
Congress.
    OK. What are the reasons for setting up a permanent 
standing committee? Let me summarize them for you, as I see 
them, anyway; and in here I am restating some of the things 
that have already been said. First of all, Congress needs to 
reorient its own culture and its own organization to suit the 
mission of homeland security. And it is not just, of course, 
these 88 subcommittees and all the rest of it. What kind of a 
message does the Congress send if we insist on vast changes in 
the executive branch and resist the organizational and the 
cultural changes that have to take place in this institution? 
Well, I think then the mission should drive the organization of 
the Congress.
    second, real congressional expertise on homeland security 
will come about better I think if you have a permanent 
committee. My guess is that everybody on Chairman Cox's 
committee has learned an awful lot about homeland security in 
the last few months, a lot more than they knew when they began 
work on that committee. That is the strength of the Congress, 
developing expertise on a difficult subject, and this is one of 
the key reasons why you should have a permanent committee.
    There is no substitute for expertise in the Congress. You 
have to have an acquired expertise focused on the task at hand; 
and I think then expertise has to be cultivated, it has to be 
developed. You have got so many other things that demand your 
attention, and serving on the committee will make you focus on 
it and make you do the job of oversight and will develop 
expertise that the Congress badly needs. But, more important, 
it will develop the expertise that is critical for the 
operation of the department itself, the executive branch.
    The third reason I would make is simply an obvious one. It 
simplifies the process of oversight. I don't need to elaborate 
on this at all. I have enormous sympathy for Cabinet officials 
who have to come before this institution time and time again, 
spending hours and hours and hours in these testimony chairs. 
Now, there is some reason for that. It is not all bad. But, 
nonetheless, I think the Congress has to be sensitive to the 
fact that secretaries of our big departments have an awful lot 
more to do than just testify before the Congress and so the 
Congress has to try to be reasonable in the demands that it 
makes on these various people. Congress can make a significant 
contribution to the implementation of the Department of 
Homeland Security simply by simplifying these overlapping 
committee structures.
    The final point I would make is the question of priorities. 
I think the most difficult task in homeland security is setting 
priorities. There are so many different kinds of terrorist 
attacks that are possible. There are so many targets that are 
vulnerable. There are a limited number of resources.
    The overwhelmingly difficult task is to make judgments 
about what things need to be protected and what kinds of 
terrorist activities need to be defended against. So--and 
setting priorities, as we all know, is the toughest problem of 
government. It really is the toughest problem that government 
faces in any field, and it certainly is in homeland security.
    OK. If the Congress sets up its own committee, I think it 
will help the Department, the President, focus on the question 
of priorities in homeland security. If you have a whole lot of 
committees dealing with homeland security, the question of 
priorities gets blurred. It gets confused even more. So this 
terribly important task of setting priorities I think can be 
advanced within the Department of Homeland Security. Everything 
points for me towards the development of this committee. I am 
very pleased that I have seen so much unanimity of opinion 
here.
    The most difficult thing in reorganization is the 
allocation of power. And people, outside people, look at the 
Congress and say, well, these are very arcane matters when you 
are dealing with committee jurisdiction and all the rest. They 
are not arcane. What you are really talking about is the 
distribution of power within the institution. All politicians, 
let us be frank about this, seek power; and when you get power, 
you don't like to relinquish power. That is perfectly natural. 
So that is why this job is so tough.
    I think you will succeed in trying to bring about a 
permanent committee. Like Bob and Tom and Newt before me, I 
certainly will do all I can to support it. But if this day goes 
by, if we go into the 109th Congress and we don't have a 
Permanent Committee on Homeland Security, we will have made I 
think a major mistake. So Godspeed in your work.
    And you ask what you can do. Well, look, you are the focal 
point right now for bringing together the arguments, the 
persuasive arguments in support of a permanent committee. You 
have got to build a case. You have got to make it persuasive. 
You have got to make it compelling. You have got then to 
persuade people internally within this House and within the 
Congress but also externally, the opinion makers in this 
community. And you folks are very skillful politicians. You 
know how to do that. Your task I think is very clear, and I 
wish you success.
    Mr. Diaz-Balart. Thank you.

          PREPARED STATEMENT OF THE HONORABLE LEE H. HAMILTON

    Chairman Diaz-Balart, Ranking Member Slaughter, thank you for 
giving me this opportunity to testify before you today on homeland 
security and committee organization in the House of Representatives.
    Importance of Issue
    Let me begin by emphasizing the importance of the issue that you 
are considering.
    Our government has no greater responsibility than protecting the 
safety and security of the American people and the American homeland. 
This became tragically clear on September 11, 2001, and the Congress 
and the executive branch appropriately responded by creating the new 
Department of Homeland Security (DHS)--a reorganization of the Federal 
Government that surpasses in size, scope and significance any 
governmental reorganization in our nation's history.
    But reform does not end with the creation of DHS. Implementing a 
consolidation of 22 agencies and nearly 170,000 employees is an 
immensely difficult and complex challenge that will take years, if not 
decades, to accomplish. And this consolidation must take place in the 
context of the war on terror and unprecedented threats to our homeland.
    The question before you is how Congress can make the implementation 
of this policy a success. This is not merely about moving around boxes 
on an organizational chart--this is about how best to provide security 
for the American people.
    Importance of Oversight
    Oversight of the executive branch is an enormously important 
function of the Congress. Indeed, oversight is at the core of good 
government in this country.
    Congress must do more than write laws--it must make sure the 
executive branch carries out those laws the way Congress intended; it 
must constructively aid in the implementation of policy; and it must 
ensure that the American peoples' voices are heard.
    The Department of Homeland Security will not succeed without 
sustained, constructive, comprehensive, vigorous and informed 
Congressional oversight.
    The Homeland Security Act states that it is ``the sense of Congress 
that each House of Congress should review its committee structure in 
light of the reorganization of responsibilities within the executive 
branch.'' I am pleased that the 108th Congress commenced this process 
by creating this Select Committee on Homeland Security. Speaker Hastert 
and Minority Leader Pelosi should be commended, as should Chairman Cox 
and Ranking Member Turner, who have ably led the Select Committee.
    The question now is what to do with the Committee. As I see it, 
there are four potential courses of action:
    --1) maintain oversight and jurisdiction of homeland security 
within the existing committee structure;
    --2) continue a Select Committee on Homeland Security on an ad hoc 
basis until it is no longer necessary;
    --3) create a Permanent Select Committee similar to the 
Intelligence Committee;
    --or 4) create a Permanent Standing Committee on Homeland Security.
    In going forward, there are key questions that should be answered. 
What Congressional action is the best response to the threat of 
terrorism? What organization will allow Congress to exercise oversight 
in the most efficient and effective manner? What organization will best 
aid the executive branch in the implementation of policy? And what is 
in the best interests of the American people and American national 
security?
    I believe that all of these questions point decisively to the need 
for a Standing Committee on Homeland Security.
    The Benefits of a Permanent Standing Committee
    The issue of homeland security is not temporary. The threat of 
terrorism is long-term, as are the related challenges that will 
confront our government. Thus necessary oversight cannot be supplied on 
an interim basis, nor can it be effectively and efficiently disbursed 
among the current 13 full committees and 60 subcommittees in the House.
    The creation of a Permanent Standing Committee on Homeland Security 
with primary legislative and oversight jurisdiction would enable the 
Congress to strengthen its organizational response to terrorism and 
enhance national security in several tangible ways:
    1)Organization that Reflects the Mission
    First, Congress needs to reorient its own culture to suit the 
mission of homeland security.
    DHS was created so that 22 agencies of the Federal Government would 
reorient their purpose and organization towards the mission of 
protecting the homeland. DHS is intended to embody a common mission and 
culture--indeed, the vital goal of implementation is to overcome 
bureaucratic resistance to forging that common culture.
    Congressional oversight should both initiate and reflect this 
intended change. What kind of message would Congress send if it insists 
on vast changes in the executive branch and then resists the very 
cultural change that it is asking of the executive branch? How do 20th 
century oversight arrangements suit the 21st century mission that we 
are asking these agencies to carry out?
    Congress can send a clear message on behalf of action and reform to 
both DHS and the American people through the creation of a Standing 
Committee on Homeland Security.
    2) Real Congressional expertise on Homeland Security
    Second, Congress needs to develop in depth, sustained expertise on 
the issue of homeland security. The way to advance that expertise 
within the Congress is with a permanent--not a temporary--committee.
    There is no substitute for acquired, focused expertise in 
oversight. One of the vital benefits of the Committee system is that it 
enables Members and staff to develop--over time--substantial expertise 
on an issue. This expertise will be lacking if homeland security is one 
of only several issues before a Committee, or if a Committee on 
Homeland Security lacks primary legislative and oversight jurisdiction.
    I am sure that all of the Members of the Select Committee know more 
about homeland security than they did at the time of their assignment 
to the Committee. This expertise must be cultivated and deepened. Only 
a Permanent Standing Committee will enable Members to become adequately 
versed in homeland security so that they can ask hard questions and 
provide informed oversight.
    3) Simplify Process of Oversight
    Third, Congress needs to simplify the process of oversight.
    Overlapping jurisdiction sows confusion in the executive branch. If 
there is no Standing Committee on Homeland Security, then DHS officials 
will spend excessive time testifying in front of multiple committees 
with oversight and jurisdictional responsibilities.
    Indeed, this has already been the case. DHS officials have been 
pulled in different directions, and have not testified in front of the 
Select Committee with the same focus that they would if it had primary 
legislative and oversight jurisdiction.
    Overlapping jurisdiction saps time that DHS officials need to do 
the important work of implementing DHS's goals, and denies them the 
benefit of informed Congressional consultation. It will greatly help 
and simplify the enormous tasks confronting the Secretary of Homeland 
Security if he understands clearly the key members of Congress with 
whom he must consult and work. Congress can make a significant 
contribution to the implementation of DHS and its policies by 
simplifying this overlapping committee structure.
    4) Set Priorities and Streamline Budgeting
    Fourth, Congress needs a Committee that can assist DHS in setting 
priorities and streamlining the budget for homeland security.
    The primary difficulty of protecting the homeland is setting 
priorities. There are an infinite number of targets, a wide array of 
terrorist methods, and a seemingly endless list of areas and entities 
that demand resources. Congress can help DHS set clear priorities so 
that the right resources are channeled to the right people at the right 
time to get the job done.
    Multiple committees with jurisdiction and oversight are likely to 
have different--even conflicting--priorities for DHS agencies. This 
will complicate an already complicated task. Creating a single 
committee will have the opposite effect, enabling the House to convey 
clear, focused priorities for homeland security.
    Just as DHS needs focused priorities, homeland security demands a 
streamlined budgeting process. A fragmented committee structure lends 
itself to poorly defined priorities and poorly allocated resources. 
Consolidating the authorization of expenditures for emergency-
responders within a Standing Committee will ensure that appropriations 
are more suited to the prioritized demands of homeland security.
    Logic of a Standing Committee
    Each of these arguments points to the basic logic of creating a 
Standing Committee on Homeland Security: homeland security is a matter 
of the utmost seriousness; homeland security is a long-term issue; 
homeland security demands that government navigate a complex maze of 
policy choices in the most efficient manner possible.
    Only a Standing Committee on Homeland Security can set a road map 
for negotiating that maze, and provide the oversight that is essential 
to effective implementation.
    Difficulties of Implementing a Standing Committee
    I recognize that implementing a Standing Committee will be 
extremely difficult. During my thirty-four years in the Congress, I 
served on and Chaired Standing, Select, and Permanent Select 
Committees, and fully understand the sensitivities involved with any 
reorganization of the committee structure.
    To be blunt, it is an issue of power. Authorizing committees are 
endowed with power--powers of oversight, investigation and 
authorization--and standing committees are and will be reluctant to 
cede these powers to a new committee.
    But should the difficulties associated with change prevent Congress 
from doing what is best to protect the American people?
    In this new era of national security a new focus of American 
governance is required. Business as usual is not acceptable. 
Confronting new and urgent problems with old organizational structures 
is also not acceptable. The creation of the Department of Homeland 
Security reflects that era, and so should the Committee structure of 
the most representative institution of our government. At the core of 
this issue is whether Congress will adjust to twenty-first century 
challenges, or whether it will protect twentieth century ways of doing 
business.
    That said, I believe change can and should be implemented with due 
respect for the responsibilities of other Committees. Old missions of 
DHS agencies can remain under previous oversight arrangements.
    Each DHS agency has responsibilities that are directly relevant to 
homeland security and should be under the oversight and jurisdiction of 
a Committee on Homeland Security. But they also have responsibilities 
that are not primarily geared towards homeland security, and can remain 
under current oversight and jurisdictional arrangements.
    For instance, some responsibilities of the Animal and Plant Health 
Inspection Service would remain under the oversight of the Committee on 
Agriculture; some responsibilities of the Immigration and 
Naturalization Service would remain under the oversight of the 
Committee on the Judiciary.
    Simply put, a new committee will not assume oversight and 
jurisdiction of areas not related to homeland security. Other 
committees will thus not cede all of their powers of oversight and 
jurisdiction over DHS agencies to a Standing Committee on Homeland 
Security.
    Conclusion--Hard Choices and the Necessity of Congressional 
Leadership
    I served on the Commission on National Security in the 21st 
Century--better known as the Hart-Rudman Commission. We determined that 
the U.S. would likely suffer a major terrorist attack on its soil, and 
recommended the creation of a cabinet-level department devoted to 
Homeland Security.
    Among our other determinations was the recognition that Congress 
often has an easier time reforming the executive branch than it does 
reforming itself. Congress has now reformed the executive branch 
through the Homeland Security Act and the creation of DHS. Congress 
must now do the difficult work of reforming itself to adequately 
respond to the threat of terrorism, and ensure that it can carry out 
vigorous and informed oversight.
    You know better than anyone how hard it is to reform committee 
jurisdictions in the Congress. The reason for the difficulty is 
simple--reform means a reallocation of power. Ultimately, reform will 
only take place with the support of the Congressional leadership. You 
have to be convinced that change is necessary and so must the 
Congressional leadership of both parties. The leadership must make the 
case to Members and demonstrate the political will necessary to 
overcome challenges and obstacles.
    The important work of your subcommittee is to evaluate the case for 
reform, to render informed judgments on the issue, then to lay before 
your colleagues a strong and compelling argument for change. If you do, 
the leadership's task will be easier.
    There are hard jurisdictional choices to make. It may seem that the 
difficulties involved with creating a Standing Committee on Homeland 
Security overwhelm the benefits of change. This is not the case.
    A new era requires you to think anew. Hard times demand hard 
choices. The Congress should not make those choices based on seeking 
the easier course of action. Congress should make those choices based 
on a determination of what measures will permit the Congress to fulfill 
its obligation to protect the American people.
    Thank you for your attention. I shall be pleased, Mr. Chairman, to 
answer any questions that you and members of the Committee may have.
    Mr. Diaz-Balart. Thank you both very much.
    I guess the argument--we have heard it before--against what 
you have advocated is that perhaps tweaking sufficiently that 
in the case, for example, of the Energy Department, the 
executive department, Congress was not able or willing or both 
to reform here internally to reflect that change and yet the 
things have more or less functioned well. How would you counter 
that argument, if it is made, from the point of experience of 
Energy?
    Mr. Walker. Well, from my perspective, I am not certain 
that it has worked well. The fact is that we are facing an 
energy crisis in this country in large part because we have 
never gotten our policy act together. I think Capitol Hill 
bears some of the responsibility for that, and it is because 
the Energy Department has found itself with multiple diverse 
jurisdictions and, as Lee I think rightfully points out, a 
multiple of priorities.
    The problem is that when you get these vertically 
integrated, very rigid structures on Capitol Hill, what they 
focus on in terms of their priorities are the things that are 
inside their jurisdiction; and anybody else's priorities they 
basically push aside. I think we had some of that in Energy; 
and, in my view, it would be a good thing to look at that 
subject matter as one in which we ought to have a much better, 
integrated way of developing policy options than we do now.
    Mr. Cox. Would the Chairman yield?
    Mr. Diaz-Balart. Yes.
    Mr. Cox. I would just observe that you are absolutely 
right, that we did not create a new committee that corresponded 
with the new Cabinet department when we created the Department 
of Energy. But as we did say in previous hearings, what we did 
do--and we have had the previous Secretary of Energy come tell 
us about this. What we did do is we gave one committee in the 
House plenary oversight of that department. So the Energy and 
Commerce Committee got jurisdiction, and it wasn't spread among 
scores of committees in the House.
    Mr. Walker. But I would say, if I might just weigh in here, 
I was on the Science Committee that had some jurisdiction in 
that area. The difficulty was that when there were high 
research priorities that we thought needed to be addressed, 
very often getting the Energy Committee that had the overall 
jurisdiction on those to look at that set of priorities was 
very difficult. Those jurisdictional arguments often ended up 
with a nonaction in that area, and we never got the 
authorization bill beyond the committee structures. It seems to 
me that what part of the problem that we have is the fact that 
we did not invest appropriately in some of the priorities that 
we should have along the way 10 and 12 years ago.
    Mr. Diaz-Balart. Mr. Meek.
    Mr. Meek. Thank you.
    Really, when we look at this new structuring, I think it is 
important--and I am sorry to step out just for a moment, Mr. 
Walker, during your testimony. When we look at the new 
committee structure, I think it is important--and I am just 
really getting here to the Congress, but I have had the 
opportunity to not only watch for years but celebrate a 
legislative life in the States.
    I didn't quite catch your feelings on making the statement 
of a standing committee. I know Chairman Cox said we are 
committed to the standing committee, that we are set up not 
only within--the Speaker has said and done by putting together 
a select committee. But I don't think that statement is made 
clear not only within our committee but out in the general 
Congress that we really mean business by this.
    Is it April 15th when taxes were due? April something? 
Well, everyone kind of knows that date, that it is coming. Some 
people know the extension date. But we know that it is coming, 
and we know that it needs to happen.
    I know it may sound primitive, and I am going to use your 
term that--or your statement that everything has been said but 
everyone hasn't said it yet. But I think it is important to be 
able to bring some direction to the Department and to the 
Congress on how important the homeland security mission is. 
Some of us are involved in many issues, and I know that you 
can't know all issues. You have Members that are experts on 
health care. You have Members that are expert on foreign 
affairs. But, as relates to homeland security, I don't know if 
we can all be experts on homeland security even though we have 
oversight as Members of Congress.
    So I guess I want, if you could give us--both of you could 
give us some feedback on how do we move about the first step in 
dealing with saying that we are serious about a standing 
committee? I mean, it is almost to the point where that I know 
what is going to be said before we get here because it is the 
right thing to do, it is the logical thing to do. But I don't 
think that statement has been made clear. Now, I know when it 
will be made clear, and none of us want to see that day, if we 
see another 9/11. We don't know if we are sitting on the eve or 
what have you of something happening on this country as relates 
to homeland. I guarantee you, we will have a standing committee 
and everyone will be on the steps of the Capitol like we are 
going to join up at noon on Thursday and sing God Bless America 
and say what we are moving forth in doing, what we are moving 
forth in protecting the homeland.
    But two past Speakers spoke to the point of trying to 
respect the sitting leadership now, and I think that is very 
important. I think they want to do the right thing. I think 
they are doing the right thing. But they need the support.
    How do we push that support forward? Is it just what we are 
doing here today, getting input and ideas? Yes, I think there 
is more time as relates to this structure. I think there is 
more time as relates to the nuances of what we want to do. But 
actually making that step forward, not only letting the 
American people know we are serious but letting the Congress 
know we are serious so we can stop talking about maybe it will 
happen, maybe it won't happen, but that it will happen and how 
we divvy up this so-called oversight.
    Mr. Hamilton. Mr. Meek, I think my reaction to your 
comments is that we, in making these recommendations in our 
organization, are not arguing for reorganization just for the 
sake of reorganization. We make these recommendations because 
we all believe that there is a paramount problem out there, and 
the paramount problem is the security and safety of the 
American people under the terrorist threat, which is basically 
new to the country.
    I served in this body a long time. I can hardly remember a 
question from a constituent about their own security. It was 
assumed. They had a lot of other things on their mind. Then 
along comes the terrorist threat, and particularly 9/11, and 
security goes to the top of everybody's agenda. And people are 
asking themselves not about the safety of the United States 
Capitol building or the White House or the Pentagon; they are 
asking themselves about the safety and security in their own 
homes and in their own neighborhoods. And that is what you are 
really dealing with here.
    Now, if you have that kind of a threat, then how does the 
Congress respond to it? I think, in making these suggestions on 
reorganization, you are responding to the deeply felt needs of 
your constituents who want to say to you, Mr. Meek, as my 
Congressman, I want you to protect my security. It is your job. 
That is the government's number one responsibility, to protect 
the security of the people. It is not anybody else's to the 
extent it is the national government. And if you don't do it, 
then you are falling down in your job as a representative.
    That is what this reorganization business is all about, and 
you have to decide what is it this institution has to do to 
make this country safer. That is principally the responsibility 
of the executive branch. They have got, obviously, the 
resources more than the Congress. But if the executive branch 
does not have your support, your cooperation, including the way 
in which you organize to deal with the problem, then I don't 
think the Congress is doing its job.
    Mr. Walker. I would respond to you by, first of all, 
agreeing with everything that Lee just said and also looking at 
the practical aspect. I think that Speaker Foley and Speaker 
Gingrich were actually right. The moment that you make this 
into a reality, you make it a fact and do it quickly. Then the 
Congress will accommodate what has become a fact.
    When you decided that you were going to transfer 
jurisdiction to the new Financial Services Committee, once that 
decision was made, they began to accommodate and figure out 
what the reorganization would look like that would create the 
new Financial Services Committee. When we decided in 1994 for 
the upcoming Congress to eliminate a couple of committees, once 
it was a fact, once it was known that that was going to happen, 
then the work went on of trying to accommodate and figure out 
how you were going to make that happen.
    It seems to me that you have to establish that basis and 
then the practicalities within the Congress will begin to kick 
in and people will begin to contribute not on the basis of an 
academic exercise but the fact that they have got to work this 
out because there are real political consequences to not 
getting it right. So establishing that basis, that there is a 
fact, this is going to happen so that you can begin to work is 
absolutely essential.
    Mr. Meek. Mr. Chairman, if I may just quickly. I think that 
is the real issue here. We have academics, we have past 
Members, we have Members that are now serving that are members 
of this committee, that are chairpersons in other 
jurisdictions--well, have jurisdiction over Department of 
Homeland Security.
    Mr. Chairman, you spoke to the point of what my 
constituents may feel, and that is what I am saying. I am 
sharing with my constituents and they are sharing with me what 
is not happening with the first responder, why things are not 
more streamlined. And I know the reason why. We have a 
department that is trying to answer not only to a father and a 
mother but to a grandmother and a grandfather on both sides of 
the family living in one household, and it depends on who has 
the louder bugle. Mr. Chairman, I know that we have to do some 
within movement to get leadership to say this is going to 
happen.
    Chairman Cox shared something with me that I feel a little 
bit better about our future as a standing committee and not 
just for the sake of being a standing committee. I mean, 
national security is at stake here as far as I am concerned; 
and I just don't want to be a member of a committee saying that 
we are doing something and knowing that we can do better and 
have more authority where the dialogue can change not only in 
this Rules Subcommittee but even in a full committee. OK, now 
we know for sure, prima facie, 100 percent, 110 percent, that 
in the next Congress we will have a standing committee. This is 
how we should move from this point on. But we are still having 
a discussion, well, you know, the Congress really needs to do 
this. So that is the reason I was asking the question.
    Mr. Hamilton. My recollection is you were a State trooper.
    Mr. Meek. Yes, sir.
    Mr. Hamilton. You have got a perspective on this problem 
that nobody else in the Congress has. You would understand the 
need for first responders better than anybody else. And in this 
question of priorities that I was talking about a moment ago 
and the importance of establishing the committee to help 
establish the priorities, a person with your kind of background 
would have a unique contribution to make, I would think. And it 
is important that that voice be heard.
    You have got all of this clamoring for money out here for 
homeland security, and almost every case is worthy in some way. 
The first responders, of course, are among the ones who are 
loudest in saying we need help. I would think you are a natural 
on the committee.
    Mr. Walker. Just one other comment that I would make as 
well, and that is that my experience with what we went through 
when we were trying to organize a minority into a majority was 
that you were most successful when you were empowering people 
rather than taking power away from people. So if as you 
formulate this committee you think about it in terms of what 
are we doing to empower people, rather than are we taking power 
away from some committee or are we undercutting it--
    There are a whole range of new subject matters that have 
arisen as a result of this tragedy. There are whole areas that 
Congress is now addressing it never even contemplated 
addressing 2 or 3 years ago. You need to figure out a way to 
organize that subject matter in a way that is jurisdictionally 
appropriate and then empower the committee in that way, rather 
than looking at how you are going to disaggregate somebody 
else's power.
    So as soon as you begin to go down that road, Lee and I 
know from experience you get tremendous opposition and it is 
very difficult. On the other hand, if everyone thinks they are 
a winner coming out of it, you have a much better chance of 
getting the kind of cooperation that you need broadly across 
the leadership.
    Mr. Diaz-Balart. Thank you both so much. You have honored 
us with your presence.
    Ms. Dunn. Could I just ask a couple questions?
    Mr. Diaz-Balart. Yes, Ms. Dunn.
    Ms. Dunn. Sorry to slow your departure, gentlemen, but I 
think it is important.
    I just want to tell you how impressed I have been with your 
testimony but also with the unanimity that has come to us out 
of this group of folks that have such good background and 
expertise in rearranging the way we do business here in 
Congress but who are well aware and have worked in one way or 
another with these newer problems.
    I wanted to ask you, Bob, you mentioned in your testimony--
you brought up the idea of the budget process. We had discussed 
in our Joint Committee on the Organization of Congress 10 years 
ago about changing it to a 2-year budget process. Are you 
thinking that that is still going to be a more effective way to 
do business, particularly with regard to this committee that we 
are dealing with now?
    Mr. Walker. Well, I raised it in the testimony by saying 
that the problem with the way in which you are now organized is 
that you have got an appropriations committee that has a 1-year 
horizon and yet they have more of the integration function than 
does the select committee. What this Department is really badly 
in need of is a committee that looks at the problems of the 
Department in an integrated way but also looks at them on a 
much longer horizon, on a 3Sec.  4Sec.  5-year horizon.
    My personal opinion is that a 2-year appropriations cycle 
would be vastly better than a 1-year appropriations cycle is 
right now. I wish we could get the multi-year appropriations 
because I think there are some subject matters that we address 
that are really demanding of having multi-year appropriations. 
This may well be one of those areas. And certainly there are 
major needs in the defense area where you are building weapons 
systems for the future, where you are trying to integrate, for 
instance, the technology that you are putting in outer space 
for defense needs that might also serve you in an air traffic 
management system. There are big issues that ought to be 
addressed in a multiple year way that we can't do under the 
present time or under the present system.
    So, yes, I am for extending the time that you can program 
through both authorizations and appropriations as much as 
possible.
    Ms. Dunn. Lee, do you have any thoughts on that?
    Mr. Hamilton. I agree. Well, I disagree. I think the 1-year 
process is anachronistic. You really need a longer term. It is 
out of date. I am a great believer in congressional oversight, 
and I think you would have far more opportunity for oversight 
if you had a 2-year budget cycle. To me, it is kind of a 
nonstarter issue, but the appropriations committee doesn't 
always agree with that view.
    Ms. Dunn. I wanted also to thank you, Lee, for your 
testimony. You were saying you didn't know what you could bring 
to the table--and, obviously, your experience. But in your 
testimony, specifically your thought about how important it is 
for us to get up there and provide leadership on why this needs 
to become a long-term committee. I think that is a very useful 
discussion and became the main topic of our first panel today.
    I would ask you, if we had time, what is your sales plan 
for our going about this? Because we have eight or nine 
committee chairmen sitting on this committee, and I think 
probably most of those are reluctant--I very much like the 
point that you bought up, Bob--about making everybody winners. 
I think that would be a fascinating discussion topic for us 
here in the Congress to go over what are the new topics that 
have come up, the new areas of responsibility that could be 
assigned to some of these committees.
    Mr. Hamilton. I think, first of all, you have to in this 
subcommittee build the substantive case for a permanent 
committee intellectually and you have to reach a genuine 
consensus. Don't be fooled by the discussion here today too 
much. I mean, I think it is encouraging, but we all know that 
when you actually begin to write things down on paper, the job 
of building a consensus gets a little more sticky, gets more 
difficult. It is important for you to work out the differences 
to the extent that they existSec.  don't want to make them out 
where none exist--yet a genuine consensus is the point of view.
    Then you have got so many members of this subcommittee. You 
just have to begin to infiltrate the House of Representatives 
and talk it up everywhere you go. But you not only have to 
build a consensus internally, you also have to deal with the 
external community out here as well. In other words, there are 
a lot of people in this town who have a lot of impact on public 
opinion who may not be members of the United States Congress, 
and it is important to reach out to that community to get them 
in support of this as well. You do this all the time in your 
appeal to the public opinion.
    I think if you do your job properly, you make the 
leadership's job much, much easier, because you have built a 
consensus. It is a genuine consensus. You have begun to talk 
about it with your colleagues, and it really makes the 
leadership's job much easier. And I think that is really your 
task: Make the leadership's job here as easy as possible in 
bringing this about.
    Mr. Diaz-Balart. Mr. Goss, we are about to wrap up. Would 
you--
    Mr. Walker. Could I make one comment with regard to Ms. 
Dunn's comment?
    Mr. Diaz-Balart. Yes, of course.
    Mr. Walker. You know, what always struck me was that most 
members come to Congress in order to act responsibly on behalf 
of the Nation and their constituents. I mean, they come here 
with prospective kinds of ideas. They want to do the right 
thing to address the future in the appropriate way.
    I think if you look at the history of the Congress over the 
last 10 or 20 years what you find is Congress is reacting more 
than acting, and the reason why you react is because you are 
structurally incapable of looking at some of these problems in 
the multi-faceted way in which they present themselves to 
American society. You know, it seems to me one of the sales 
points that you need to make is, if you are going to be in the 
forefront of making policy for real and not simply reacting to 
events that have occurred or actions that people have already 
taken, you have got to structure yourself to be able to do 
that.
    You know, in many cases the real decisions with regard to 
our economy are being made well beyond the halls of the 
Congress. And maybe that is as it should be, but the fact is 
that in most cases by the time you act on things that are 
important in a regulatory way to get the right kind of balance 
you are well behind the curve and more decisions are rolling 
out in front of you. There is a very, very quick reaction time 
that the structure of Congress doesn't allow you to deal with. 
So it seems to me part of the sales job here is to simply say, 
if we are going to be relevant to policy in the future, we have 
got to structure ourselves in a way that is relevant to what is 
really going on.
    Mr. Diaz-Balart. Mr. Goss.
    Mr. Goss. Thank you. I apologize for having absented myself 
for a moment.
    I do have one question that I would like your advice on. It 
is an issue that is not new to you. And that is, do you think 
there would be any value, given the special nature of this and 
really the need to keep a coordinated effort and an effective 
effort in the United States Congress, to combining the House 
and Senate committee structure on this and have a joint 
committee or a single committee on behalf of Congress? It is 
the same issue we have discussed with Intelligence a number of 
times.
    Is it a benefit in the long haul to keep people on and make 
them expert in these territories and have a coordinated one 
voice of Congress? Or what we have now, which is this 
disparate, everybody has a point of view, everybody has a 
different approach, a different perception, legitimately, and 
so the noise level reaches a level it seems and is about as 
focused.
    Mr. Walker. In my view, you know, you run into 
institutional problems. I think the only way that you make that 
work that is successful in this effort is that if you can 
empower it in real ways, that you can give it true authorizing 
power. The problem with most joint committees is the fact that 
they don't have any real power. They have the power to discuss 
and the power to issue reports, but in terms of their ability 
to really have--
    Mr. Goss. I had in mind a statutorily recognized committee 
in Congress, whether it is standing or permanent select or 
permanent joint or something. I would envision that it would 
have the authorizing power, and perhaps a counterpart program 
would be appropriate.
    Mr. Walker. Well, again, this is a topic I have thought a 
little bit about. I have often thought that as you address some 
of these cross-cutting issues that it would be useful to have 
almost a super committee structure on some of these very large 
topics where you would give that committee authorizing and 
perhaps appropriating power on these broad issues. If you could 
do it jointly, it would be a way in which you could get the 
kind of management that I think really fits with where the 
society is going at the present time.
    Having said that, I recognize that there are huge 
institutional hurdles to be overcome in order to make that 
happen.
    Mr. Hamilton. Mr. Goss, I have to be a little careful here. 
I am on this 9/11 Commission, as you know.
    Mr. Goss. I am glad you are.
    Mr. Hamilton. Well, thank you. But one of the topics here 
would be the Intelligence Committee, and I don't want to in any 
way suggest that I am trying to speak for the Commission at 
this point.
    My own personal feeling has been not to support a joint 
committee, and the reason for it is that the oversight of the 
intelligence community is an extremely difficult task to work 
out in a democratic society. You are dealing with a community 
that demands secrecy. How do you get accountability, oversight 
of that kind of an institution?
    My general view is that the intelligence community needs 
more, not less, oversight. That is why I like the aggressive 
work you do as chairman of the Intelligence Committee. But you 
have the President's committee--what is it, the executive 
oversight of it? The executive oversight. You have that. I am 
for that. That is good. But you really have only three bodies 
that give oversight to the intelligence community. You have 
that committee and the executive branch, all appointed by the 
President incidentally, and then you have the House and the 
Senate and very different institutions. I think you need more 
oversight, not less; and I would be very reluctant to see the 
Congress go to joint committee.
    Mr. Goss. Thank you.
    The view is really the question of effectiveness versus the 
safeguards, and we have two Houses for a reason. Once you get 
into that, I think I come to the same conclusion you do, 
although the frustration level makes me think that there must 
be a better way. I thank you for your help.
    Mr. Diaz-Balart. Thank you both very much. Your testimony 
has been a key part of the foundation that we are creating, and 
we have learned much from your testimony. Thank you. We are 
honored.
    The hearing is closed.
    [Whereupon, at 1:11 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
